No. _______________
_____________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________________
TYRUS D. COLEMAN – PETITIONER
VS.
RON NEAL – RESPONDENT
_____________________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
_____________________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
_____________________________________________
John A. Kindley
1626 Lincoln Way East
South Bend, IN 46613
(574) 400-5094
john@kindleylaw.com
Counsel of Record for Petitioner

In the

United States Court of Appeals
For the Seventh Circuit
____________________

No. 18-3264
TYRUS D. COLEMAN,

Petitioner-Appellant,
v.

RON NEAL, Warden, Indiana State Prison,
Respondent-Appellee.
____________________
Appeal from the United States District Court for the
Northern District of Indiana, South Bend Division.
No. 3:16-cv-301 PPS — Philip P. Simon, Judge.

____________________

ARGUED OCTOBER 1, 2020 — DECIDED MARCH 11, 2021
____________________

es.

Before EASTERBROOK, MANION, and ROVNER, Circuit Judg-

PER CURIAM. Tyrus Coleman is serving a 45-year sentence
for the aXempted murder of Anthony Dye. He was tried
twice. The jury in the ﬁrst trial acquiXed him of murdering
Jermaine Jackson but could not reach a unanimous verdict
on the charge of aXempting to murder Dye. At the second
trial, which was limited to the aXempted-murder charge, the
jury returned a guilty verdict. Coleman says that this se-

Appendix A

2

No. 18-3264

quence violates the Double Jeopardy Clause of the Fifth
Amendment, applied to the states through the Due Process
Clause of the Fourteenth. Coleman also accuses his lawyer of
providing ineﬀective assistance at the second trial. State
courts rejected both of these arguments, as did a federal district court. 2018 U.S. Dist. LEXIS 76497 (N.D. Ind. May 7,
2018), reconsideration denied, 2018 U.S. Dist. LEXIS 160799
(N.D. Ind. Sept. 20, 2018).
The events were captured on a surveillance camera. Both
juries saw this video. The district court reviewed it and concluded that the Indiana Supreme Court had narrated the
facts accurately:
Tyrus Coleman shot his friends Anthony Dye and Dye’s son
Jermaine Jackson during a confrontation on Coleman’s property,
where Coleman operated a music recording studio. The confrontation stemmed from an event occurring approximately four
months earlier in which Omar Sharpe, one of Coleman’s musician clients, robbed Dye at gunpoint. Coleman retrieved part of
the stolen property from Sharpe and returned it to Dye. [Jackson] was irritated when he later learned that Sharpe had robbed
his father, but Dye asked him not to get involved. On the afternoon of the shootings, [Jackson] discovered that Sharpe was present at Coleman’s studio and frantically phoned Dye to “[c]ome
over here right now.” Armed with a handgun Dye headed to
Coleman’s studio. In the meantime an armed and agitated [Jackson] pushed open the door to the studio and aXempted to enter.
Sharpe, who was present inside, prevented [Jackson’s] entry and
closed the door. Exiting the studio Coleman aXempted to calm
[Jackson] and to dissuade him from trying to enter. Coleman
called a neighbor to come over to help calm [Jackson]; he also
called his business partner to inform him of the situation. The
neighbor testiﬁed that he tried to talk with [Jackson] by telling
him what he [Jackson] was doing “wasn’t worth it. Just go ahead
and leave. There was kids around and people around that didn’t
have nothing to do with what they was angry about.” According

Appendix A

No. 18-3264

3

to the witness [Jackson] responded by saying, “F* *k that. He
didn’t think about that s* *t when he did the s* *t to my Daddy.”
Coleman armed himself and walked back and forth in front of
the studio door holding his handgun at his side. As Coleman
was making a phone call, Dye came into the yard through a front
gate carrying a handgun which was pointed toward the ground.
Dye strode toward his son [Jackson], who was standing next to
Coleman on the patio in front of the studio. Within three seconds, the following occurred: Dye stepped onto the patio where
[Jackson] and Coleman were standing. As Dye stepped in front
of Coleman, Coleman raised his gun and ﬁred at Dye, who immediately fell to the ground. Coleman then shot Dye a second
time. At that point Coleman “turned to Jermaine [Jackson].”
Coleman saw that [Jackson’s] handgun, which before that time
had been concealed under his shirt and in a holster, was “pointed at [Coleman],” and Coleman shot [Jackson]. [Jackson] fell to
the ground and died at the scene as a result of his injuries. After
the shooting, Coleman drove to Milwaukee disposing of his
weapon along the way. Several days later he returned to Elkhart
and surrendered to the police.

Coleman v. State, 946 N.E.2d 1160, 1163–64 (Ind. 2011).
Coleman contends that the ﬁrst jury must have found
that he acted in self-defense when killing Jackson and that
this conclusion necessarily applies to Dye as well. He relies
on Ashe v. Swenson, 397 U.S. 436 (1970), and its successors,
which hold that principles of issue preclusion are part of the
rule against double jeopardy. The parties have sparred over
the extent to which 28 U.S.C. §2254(d)(1) applies to the Indiana Supreme Court’s contrary conclusion. We need not resolve that debate, because it does not require even an ounce
of deference to conclude that Coleman’s acquiXal on the
murder charge does not establish that he acted in selfdefense when shooting Dye.

Appendix A

4

No. 18-3264

Currier v. Virginia, 138 S. Ct. 2144, 2149–50 (2018), tells us
to read acquiXals for the least they must establish, not the
most that they might represent. It is scarcely necessary to do
more than reread the state court’s summary of the facts to
conclude that the jury in the ﬁrst trial readily could have
found that Coleman tried to defend himself against Jackson
but had no such justiﬁcation for shooting Dye. By the time
Coleman shot Jackson, his father Dye was on the ground
with two bullets in him, and Jackson had opened ﬁre at
Coleman. A jury might well have thought that Coleman returned Jackson’s ﬁre to defend himself. But that does not
imply anything about Dye’s earlier shooting. Dye had a gun
but was not pointing it at Coleman and did not pull the trigger. Coleman nonetheless shot Dye twice, including once after he was on the ground.
We do not know why the ﬁrst jury was unable to reach a
unanimous verdict with respect to Coleman’s shooting of
Dye. Perhaps some jurors were impressed by Coleman’s
knowledge that Dye had a reputation for violence. That reputation may have left Coleman in fear of a gun-toting Dye—
but the jury’s acquiXal on the charge that Coleman murdered Jackson does not establish in Coleman’s favor any fact
such as the possibility that Coleman shot Dye because of that
fear. Dye and Jackson are diﬀerent people who posed diﬀerent threats (if Dye posed any at all). Coleman tries to tease a
form of retroactive self-defense toward Dye from the jury
instructions about crimes commiXed close in time, but we
ﬁnd the argument implausible—and it is at all events an argument based on state law that the state’s highest court evidently found wanting. Given the rule of Currier, the Double
Jeopardy Clause does not entitle Coleman to be acquiXed on
both charges.

Appendix A

No. 18-3264

5

This leaves Coleman’s aXack on the performance of his
lawyer. The state’s highest court applied the rule articulated
in Strickland v. Washington, 466 U.S. 668 (1984), but in one respect it did so unreasonably: when deciding whether Coleman suﬀered prejudice, it viewed each of the asserted errors
in isolation, rather than asking whether counsel’s errors
were prejudicial cumulatively. Coleman commits the opposite error: instead of asking whether the defense as a whole
was constitutionally adequate, he supposes that any one
mistake entitles him to collateral relief. Strickland says, however, that it is the full course of representation that maXers.
466 U.S. at 690–96. There is a potential exception for a
whopper of an error that nulliﬁes all of the good things that
counsel did, see Williams v. Lemmon, 557 F.3d 534, 538 (7th
Cir. 2009), but none of the arguments that Coleman advances
falls in that category.
The district judge covered Coleman’s arguments thoroughly, 2018 U.S. Dist. LEXIS 76497 at *18–32, and supplied
the all-things-considered evaluation of prejudice that the
state court omiXed, id. at *32–33. We need not repeat the district court’s analysis, though we reproduce its handling of
one issue to give a ﬂavor of Coleman’s contention and the
district court’s evaluation.
Dye testiﬁed for the prosecution at both trials. In two respects his testimony was subtly diﬀerent, and Coleman’s
lawyer did not try to impeach Dye at the second trial on the
basis of an asserted inconsistency. Here’s what the district
court wrote (id. at *23–25) (boldface and bracketed material
in original; record citations omiXed):
Coleman argues that trial counsel was ineﬀective for failing to
impeach Dye with inconsistent testimony from the ﬁrst trial and

Appendix A

6

No. 18-3264
pending charges and failing to question Dye regarding his gun.
The ﬁrst inconsistency highlighted by Coleman is that, at the
ﬁrst trial, Dye testiﬁed that, prior to the shootings, he might have
asked Jackson about Omar Sharpe’s location, but, at the second
trial, he testiﬁed that he did not say anything. Coleman also
notes the following inconsistency in the testimony regarding
Coleman’s involvement in the prior robbery of Dye. At the ﬁrst
trial here’s what Dye said:
Trial Counsel: And you didn’t — you knew that [Coleman]
wasn’t involved in this robbery?
Dye: Well, I protected him to the end. Anytime somebody
would ask me I would always say no. [Coleman] ain’t have
nothing to do with it. That was my take on it.
And then at the second trial, here’s what he said:
Trial Counsel: Okay. You knew Tyrus didn’t have anything
to do with the robbery, right, the — Omar’s robbery of you?
Dye: At ﬁrst. I mean, when it ﬁrst happened, you know, I
gave him the beneﬁt of the doubt, you know. Everybody
else, though, kept puXing him in it, but I protected him til
the end.
In my view, these are triﬂing discrepancies in Dye’s testimony.
Trial counsel may have felt that pointing out such modest inconsistencies would have been silly and nitpicky. That’s a judgment
call.
The Court of Appeals determined that counsels’ failure to impeach did not result in prejudice under Strickland; that decision
was entirely reasonable. After reviewing the record, I ﬁnd that
the State court’s determination regarding trial counsel’s failure
to impeach Dye was not objectively unreasonable. Coleman argues that the failure to impeach prejudiced him because the
prosecution’s case primarily relied on Dye’s testimony and the
video recording, which meant that Dye’s credibility was pivotal
to the jury’s decision. Coleman does not further elaborate on this
argument, and it is not clear that Dye’s credibility was a material
consideration by the jury. The entire episode was captured on

Appendix A

No. 18-3264

7

video for the jury to review. In all likelihood, the video is what
made the case. In any event, Coleman has not cited any portion
of Dye’s testimony that substantially undermined his defense.
Coleman also argues that trial counsel was ineﬀective for failing
to ask Dye whether his gun was loaded. The appellate court rejected this claim, reasoning that whether the gun was loaded was
irrelevant because Coleman had no knowledge regarding this
detail. In other words, whether the gun was loaded or not was
neither here nor there because there was no way for Coleman to
have known this, and that is the only person that maXers. The
court concluded that asking this question would not have
changed the outcome of the proceedings, and therefore there is
no prejudice under Strickland. This conclusion is entirely reasonable.

We agree with the district judge’s analysis. And we add that
the overall performance of counsel was admirable. The
shootings were captured on video, yet counsel persuaded
the ﬁrst jury to acquit on one count and not reach a verdict
on the other. That counsel could not do as well with the second jury does not demonstrate a violation of the Constitution.
AFFIRMED

Appendix A

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 1 of 26

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
TYRUS D. COLEMAN,
Petitioner,
v.

SUPERINTENDENT,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

Cause No. 3:16-cv-301 PPS

OPINION AND ORDER
Tyrus D. Coleman seeks habeas corpus relief from his conviction for attempted
murder. He was found guilty by a jury, and the Elkhart County Circuit Court sentenced
him to forty-five years of incarceration. He seeks relief based on a slew of issues, but I find
that none of them entitle him to relief.
Let’s start with the facts as set forth by the state court which I must presume are
correct unless they are rebutted with clear and convincing evidence. 28 U.S.C. § 2254(e)(1).
Coleman does not dispute the Indiana Supreme Court’s summary of the evidence
presented at trial. Here are the facts as set forth by the Indiana Supreme Court:
In a tragic incident occurring March 18, 2007, Tyrus Coleman shot his
friends Anthony Dye and Dye’s son Jermaine Jackson during a
confrontation on Coleman’s property, where Coleman operated a music
recording studio. The confrontation stemmed from an event occurring
approximately four months earlier in which Omar Sharpe, one of
Coleman's musician clients, robbed Dye at gunpoint. Coleman retrieved
part of the stolen property from Sharpe and returned it to Dye. Jermaine
1

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 2 of 26

was irritated when he later learned that Sharpe had robbed his father, but
Dye asked him not to get involved. On the afternoon of the shootings,
Jermaine discovered that Sharpe was present at Coleman's studio and
frantically phoned Dye to “[c]ome over here right now.” Armed with a
handgun Dye headed to Coleman’s studio. In the meantime an armed and
agitated Jermaine pushed open the door to the studio and attempted to
enter. Sharpe, who was present inside, prevented Jermaine’s entry and
closed the door. Exiting the studio Coleman attempted to calm Jermaine
and to dissuade him from trying to enter. Coleman called a neighbor to
come over to help calm Jermaine; he also called his business partner to
inform him of the situation. The neighbor testified that he tried to talk
with Jermaine by telling him what he [Jermaine] was doing “wasn't worth
it. Just go ahead and leave. There was kids around and people around that
didn't have nothing to do with what they was angry about.” According
to the witness Jermaine responded by saying, “F* *k that. He didn't think
about that s* *t when he did the s* *t to my Daddy.” Coleman armed
himself and walked back and forth in front of the studio door holding his
handgun at his side. As Coleman was making a phone call, Dye came into
the yard through a front gate carrying a handgun which was pointed
toward the ground. Dye strode toward his son Jermaine, who was
standing next to Coleman on the patio in front of the studio. Within three
seconds, the following occurred: Dye stepped onto the patio where
Jermaine and Coleman were standing. As Dye stepped in front of
Coleman, Coleman raised his gun and fired at Dye, who immediately fell
to the ground. Coleman then shot Dye a second time. At that point
Coleman “turned to Jermaine.” Coleman saw that Jermaine’s handgun,
which before that time had been concealed under his shirt and in a
holster, was “pointed at [Coleman],” and Coleman shot Jermaine.
Jermaine fell to the ground and died at the scene as a result of his injuries.
After the shooting, Coleman drove to Milwaukee disposing of his weapon
along the way. Several days later he returned to Elkhart and surrendered
to the police.
Coleman v. State, 946 N.E.2d 1160, 1163-64 (Ind. 2011); ECF 7-11 at 2-3.
What is not included in the Supreme Court’s description of the evidence is the fact
that the entire episode is captured on video which I have viewed in my consideration of
Coleman’s petition. State’s Exhibit 25 is a DVD from a security video from the day in

2

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 3 of 26

question — March 18, 2007. The shootings occurred at approximately 3:34 pm. The
Supreme Court’s description of the events is accurate. But a picture is worth a thousand
words, and I found viewing the video to be extremely helpful in bringing the case into
focus.
The State charged Coleman with murder for the death of Jermaine Jackson and
attempted murder for the shooting of Mr. Dye. In the first trial, Coleman testified and
admitted the shootings, but contended that his actions against both victims were justified
on the basis of self-defense. The jury acquitted Coleman on the murder of Jackson, but was
hung on the charge of attempted murder of Mr. Dye. Recall that Dye was shot twice and
survived, and Jackson was shot thereafter and died. The trial court thus declared a mistrial
on the count of attempted murder of Mr. Dye and scheduled another trial. Prior to retrial
Coleman filed a motion to dismiss contending a subsequent trial on the attempted murder
of Dye was barred by collateral estoppel and the Double Jeopardy Clauses of both the
United States and Indiana Constitutions. The trial court denied the motion, and a retrial
ensued where Coleman was found guilty of the attempted murder of Dye. He was later
sentenced to a term of forty-five years. Id. at 1164.
Coleman argues that he is entitled to habeas corpus relief because his second trial
on the charge of attempted murder violated the Double Jeopardy Clause. He also argues
that he was denied effective assistance of trial counsel when trial counsel: (1) failed to
question the jurors regarding self defense during voir dire; (2) failed to properly crossexamine Dye’s testimony; (3) failed to comply with a witness separation order and call

3

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 4 of 26

character witnesses; (4) failed to call Omar Sharpe and LaQuisha Hunt as witnesses; (5)
failed to present an uncropped version of the video recording of the shooting; and (6)
presented inconsistent defenses. Coleman has presented these claims to the Indiana
Supreme Court and the Court of Appeals of Indiana. ECF 7-3 at 16-27; ECF 7-10; ECF 7-14;
ECF 7-18. Therefore, Coleman has properly exhausted his State court remedies, and I will
consider his claims on the merits. See 28 U.S.C. § 2254(b)(1)(A); Lewis v. Sternes, 390 F.3d
1019, 1025 (7th Cir. 2004).
Respondent argues that Coleman’s petition is untimely because he missed the
limitations deadline of May 10, 2016, by six days. Respondent concedes that the prison
mailbox rule may apply but notes that Coleman did not corroborate his assertion that he
timely submitted the petition to the prison mail system with an affidavit. See Ray v.
Clements, 700 F.3d 993, 1008 (7th Cir. 2012). However, Coleman has since filed an affidavit
attesting that he submitted the petition to the prison mail system on May 6, 2016. ECF 10-1.
As a result, I find that Coleman’s petition is timely.
Discussion
Federal habeas review serves as an important error-correction role in helping to
ensure the proper functioning of the criminal justice system. But the available relief is very
limited. “Federal habeas review . . . exists as a guard against extreme malfunctions in the
state criminal justice systems, not a substitute for ordinary error correction through
appeal.” Woods v. Donald, 135 S.Ct. 1372, 1376 (2015) (quotations and citation omitted).
Habeas relief can only be granted in one of two ways: if it is shown that the adjudication

4

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 5 of 26

of the claim by the state court resulted “in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States;” or if the state court decision was based “on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d).
This is a demanding standard that has been described by the Supreme Court as
being “intentionally difficult to meet. We have explained that clearly established Federal
law for purposes of §2254(d)(1) includes only the holdings . . . of this Court’s decisions.
And an unreasonable application of those holdings must be objectively unreasonable, not
merely wrong; even clear error will not suffice.” Woods, 135 S. Ct. at 1376 (quotation marks
and citations omitted). What this means is that to succeed on a habeas claim the petitioner
must show that the state court’s ruling “was so lacking in justification that there was an
error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Id.
Criminal defendants are entitled to a fair trial but not a perfect one. Rose v. Clark, 478
U.S. 570, 579 (1986). To warrant relief, a state court’s decision must be more than incorrect
or erroneous; it must be objectively unreasonable. Wiggins v. Smith, 539 U.S. 510, 520 (2003).
“A state court’s determination that a claim lacks merit precludes federal habeas relief so
long as fairminded jurists could disagree on the correctness of the state court’s decision.”
Harrington v. Richter, 562 U.S. 86, 101 (2011) (quotation marks omitted).

5

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 6 of 26

With these standards in mind I will turn to the various claims for relief asserted by
Mr. Coleman.
Issue Preclusion and Double Jeopardy
Coleman claims that the Indiana Supreme Court made an objectively unreasonable
determination that his second trial on the charge of attempted murder did not violate the
Double Jeopardy Clause. On direct appeal, Coleman argued that issue preclusion applied
to the charge of attempted murder of Dye barring a retrial on that count. Coleman’s theory
is that because the jury acquitted him of the murder of Jackson, that amounted to a finding
of fact that he acted in self-defense as to the other victim, Dye.
Let’s start with some basics. The Double Jeopardy Clause of the Fifth Amendment
“was designed to protect an individual from being subjected to the hazards of trial and
possible conviction more than once for an alleged offense.“ Green v. United States, 355 U.S.
184, 187 (1957). The doctrine of issue preclusion “is embodied in the Fifth Amendment
guarantee against double jeopardy.” Ashe v. Swenson, 397 U.S. 436, 445 (1970). This means
that “when an issue of ultimate fact has once been determined by a valid and final
judgment, that issue cannot again be litigated between the same parties in any future
lawsuit.” Id. at 443. “Where a previous judgment of acquittal was based upon a general
verdict, as is usually the case, this approach requires a court to examine the record of a
prior proceeding, taking into account the pleadings, evidence, charge, and other relevant
matter, and conclude whether a rational jury could have grounded its verdict upon an
issue other than that which the defendant seeks to foreclose from consideration.” Id. But

6

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 7 of 26

consideration of counts upon which the jury hung “has no place in the issue-preclusion
analysis.” Yeager v. United States, 557 U.S. 110, 122 (2009). “Because a jury speaks only
through its verdict, its failure to reach a verdict cannot—by negative implication—yield a
piece of information that helps put together the trial puzzle.” Id. at 121.
At the first trial, the prosecution attempted to prove a charge of attempted murder
for the shooting of Dye and a charge of murder for the shooting of Jackson. Direct Appeal
App. 104. Recall that Coleman shot Dye twice, and then, immediately thereafter, Jackson
pointed a gun at Coleman, and Coleman shot and killed Jackson. Coleman asserted selfdefense, and the jury was instructed on this defense. Id. at 112. The jury acquitted Coleman
on the charge of murder of Jackson, but it could not reach a verdict on the charge of
attempted murder of Dye. Id. at 130. Coleman then filed a motion to dismiss the charge of
attempted murder based on issue preclusion, which the trial court denied. Id. at 147-66,
184-88. At the second trial, the jury convicted Coleman on the charge of attempted murder.
Id. at 317.
Here’s how the jury was instructed on self-defense:

A person is justified in using deadly force, and does not have a duty
to retreat, only if he reasonably believes that deadly force is necessary to
prevent serious bodily injury to himself or a third person or the commission
of a forcible felony.
However, a person may not use force if:
He is committing a crime that is directly and immediately connected
to the confrontation;

7

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 8 of 26

He provokes a fight with another person with intent to cause bodily
injury to that person; or
He has willingly entered into a fight with another person or started
the fight, unless he withdraws from the fight and communicates to the other
person his intent to withdraw and the other person nevertheless continues
or threatens to continue the fight.
Id. at 112.
On direct appeal, Coleman argued that the jury from the first trial acquitted him on
the charge for the murder of Jackson based on the self-defense instruction, although this
is rank speculation. ECF 7-3 at 18-22. He further argued that this means that this jury
necessarily found that he did not commit a crime by shooting Dye, which took place before
he shot Jackson. Id. To which I ask, why then did the jury not acquit him of the attempted
murder? The respondent argued on direct appeal that the jury could have interpreted the
two shootings as a single confrontation and then considered whether Coleman had
committed a crime prior to this confrontation. ECF 7-4 at 23-27. The Court of Appeals of
Indiana agreed with Coleman and reversed the trial court’s ruling on the motion to
dismiss. ECF 7-6.
Respondent petitioned the Indiana Supreme Court for transfer, which was granted.
ECF 7-9. According to the Indiana Supreme Court, Coleman argued that if the jury found
that he was reasonably in fear of Jackson, then the jury must have necessarily found that
he was reasonably in fear of Dye. ECF 7-11 at 4-6. The Indiana Supreme Court rejected this
argument, noting that the jury could have sensibly found that the second shooting was

8

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 9 of 26

justified but that the first shooting was not because Jackson, unlike Dye, was clearly
agitated and had pointed and fired a gun at Coleman. Id.
Significantly, the Indiana Supreme Court’s reasoning, though internally sound,
wholly misconstrues Coleman’s argument and omits any mention of the reasoning of the
Court of Appeals of Indiana. Indeed, Coleman’s argument regarding issue preclusion
remained consistent at each relevant stage of litigation from his motion to dismiss to the
instant habeas petition, and there is no apparent explanation as to why the Indiana
Supreme Court declined to address it. This discrepancy raises the question of which
standard of review I should apply to the Indiana Supreme Court’s decision.
In Harrington v. Richter, 562 U.S. 86, 98 (2011), the Supreme Court held that, “Where
a state court’s decision is unaccompanied by an explanation, the habeas petitioner’s burden
still must be met by showing there was no reasonable basis for the state court to deny
relief.” In such cases, “a habeas court must determine what arguments or theories
supported or, as here, could have supported, the state court’s decision; and then it must ask
whether it is possible fairminded jurists could disagree that those arguments or theories
are inconsistent with the holding in a prior decision of [the Supreme Court].” Id. at 102. The
Supreme Court extended the Harrington standard of review to “when the state court
addresses some of the claims raised by a defendant but not a claim that is later raised in a
federal habeas proceeding.” Johnson v. Williams, 568 U.S. 289, 293 (2013).
Similarly, the Seventh Circuit extended the Harrington standard of review to cases
in which “the last state court to render a decision offers a bad reason for its decision.” Brady

9

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 10 of 26

v. Pfister, 711 F.3d 818, 826 (7th Cir. 2013). In such cases, federal courts must “still apply
AEDPA deference to the judgment.” Whatley v. Zatecky, 833 F.3d 762, 775 (7th Cir. 2016).
Stated otherwise, a federal habeas petitioner is not entitled “to de novo review simply
because the state court’s rationale is unsound.” Id. Based on these cases, I conclude that I
must apply the deferential standard of review described in Harrington to the judgment of
the Indiana Supreme Court even if the opinion of the Court did not address the substance
of Coleman’s argument.
After reviewing the record, there is at least one theory that could have supported
the Indiana Supreme Court’s decision. The trial court denied Coleman’s motion to dismiss
because the jury did not necessarily rely on the self defense instruction to acquit Coleman;
they could have acquitted Coleman of the Jackson murder by finding that the prosecution
did not demonstrate the elements of the offense of murder. Direct Appeal App. 187.
Coleman tells me that the fact that he knowingly killed Jackson was not in dispute, but the
trial record suggests otherwise. The jury was instructed that to convict Coleman for
murder, they were required to find that he knowingly killed Jackson and that knowingly
was defined as follows: A person engages in conduct “knowingly” if, when he engages in
the conduct, he is aware of a high probability that he is doing so. Id. at 105,109. Coleman
did not concede this element at trial, but instead testified as follows:
Trial Counsel: Now, you just have explained that you have this history with
[Jackson]. You’re–you’re good friends. Long time. You know he’s not that
type of person. What’s happening here?

10

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 11 of 26

Coleman: I don’t know what’s happening. I don’t–I don’t know. Everything
just went so fast. Every went so crazy fast. It went from being cool and
everything calming down, to right back there in a split second. I just
seen–and I didn’t expect it from him at all. I never been in a situation like this
before in my life.
Trial Counsel: Why did you turn your gun to [Jackson]?
Coleman: Because the gun was pointed at me.
Trial Counsel: Did [Jackson] shoot first or did you shoot first?
Coleman: I think–well, I would probably say he shot first at me ‘cause as
soon as I moved and started like I was going to turn towards him, that’s
when his gun started going off, and then I instantly returned fire.
Trial Counsel: Did the whole thing–did the whole shooting started when
you fired at [Dye]?
Coleman: Yes, sir.
Trial Counsel: Up till that point, [Jackson’s] gun was actually in the holster?
Coleman: Yeah. I–I–I believe when he seen me raise the gun at [Dye], I
believe that’s when he first started to pull his gun out; but, I mean, I’m not
for sure of that because my focus was on [Dye]. I wasn’t really too much
worried about him until I looked over at him. But everything happened so
fast. Everything–I mean, it was all over with within like three seconds.
First Trial Tr. at 299-301.
What’s more, using this testimony for support, trial counsel invited the jury to
acquit Coleman of the murder charge based on the prosecution’s failure to prove beyond
a reasonable doubt that Coleman had formed the requisite mens rea when he fatally shot
Jackson. Here’s what trial counsel said on that subject during closing argument:
Now, the prosecutor is going to go through each element, or did go through
each element of, okay, what is murder and what is attempted murder and

11

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 12 of 26

what does the prosecutor have to prove, and he has to prove each one of
those things beyond a reasonable doubt. You have to be firmly convinced in
the matter of the highest important to you that [Coleman] committed this
crime. Think about the state of mind.
The prosecutor talks a lot about how do we know, how do we know that’s
going on in a person’s mind? We look at all the actions before, during, and
after. We look at the whole context. We look at the totality of the
circumstances. All the shooting lasted three seconds. It’s clear that [Coleman]
was afraid. It’s clear that [Coleman] was irrational after the fact. So did he
really know he was killing [Jackson]; did he really have the specific intent to
kill [Dye]; or was it something else? Was it acting without thinking? Acting
without thinking. Does that make any sense? Anybody ever done that?
Let me give you an example. Somebody tries to punch you in the face and
you duck. Do you think, well, I’m getting ready to get punched in the face
I better duck, or do you just duck? You can act without thinking. Because of
the situation he was in, because there were two armed men coming at him,
one of them a scary guy, two armed men who made it known we’re here to
hurt somebody don’t get in our way or you’ll get it too, in an instant he
reacted. In an instant he stopped [Dye]. [Dye] approaching aggressively, gun
in hand, ready to be fired, and [Coleman] stopped him. That’s what was in
his mind. That was his intent. You can’t say anything more than that. You
can’t be sure beyond a reasonable doubt of anything more than that.
Id. at 396-97. Following this line of argument, it is altogether possible that the jury could
have based it acquittal of Coleman on the lack of proof beyond a reasonable doubt that
Coleman acted “knowingly” and that the acquittal had nothing to do with self-defense.
Let’s be honest about it: we really do not know why the first jury acquitted Coleman
of the murder charge and ended up hung on the attempted murder count. But if one were
to accept Coleman’s argument, the Double Jeopardy Clause would preclude retrial on the
hung count. I see no basis in law or fact why that would be the case. The simple fact of the
matter is that the State of Indiana was free to retry Coleman on the attempted murder

12

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 13 of 26

count because the first jury was hung on that charge. This is because, as stated above, “a
rational jury could have grounded its” acquittal of Coleman in the Jackson murder “on an
issue other than that which the defendant seeks to foreclose from consideration.” Ashe, 397
U.S. at 443. In other words, the jury could have grounded its acquittal of Coleman on
something other than self-defense. So nothing about the retrial on the hung count offends
the Double Jeopardy Clause.
Ineffective Assistance of Counsel
Coleman alleges that trial counsel from his second trial provided constitutionally
ineffective assistance of counsel. To prevail on an ineffective assistance of counsel claim in
the State courts, a petitioner must show that counsel’s performance was deficient and that
the deficient performance prejudiced him. Strickland v. Washington, 466 U.S. 668 (1984). The
test for prejudice is whether there was a reasonable probability that “but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Id. at 694.
A reasonable probability is a probability “sufficient to undermine confidence in the
outcome.” Id. at 693. In assessing prejudice under Strickland “[t]he likelihood of a different
result must be substantial, not just conceivable.” Harrington, 562 U.S. at 112. However,
“[o]n habeas review, [the] inquiry is now whether the state court unreasonably applied
Strickland . . . .” McNary v. Lemke, 708 F.3d 905, 914 (7th Cir. 2013). “Given this high
standard, even ‘egregious’ failures of counsel do not always warrant relief.” Id.
Coleman generally argues that the Court of the Appeals of Indiana was misguided
on how to apply the prejudice prong of the Strickland analysis by the Indiana Supreme

13

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 14 of 26

Court’s decision in Helton v. State, 907 N.E.2d 1020 (Ind. 2009). In a footnote in Helton, the
Indiana Supreme Court cited an incorrect articulation of the Strickland prejudice test merely
to reject it. Id. at 1023 n.1. Though the Court of Appeals of Indiana cited Helton as it set
forth the Strickland analysis, there is no indication that the Court of Appeals of Indiana
relied on this incorrect standard when deciding Coleman’s case. Therefore, Coleman’s
argument that Court of Appeals of Indiana was misguided by Helton is not a basis for
habeas relief.
Coleman has a number of specific claims of ineffective assistance of counsel which
I will address below. But first, Coleman claims that the state habeas court’s description of
the video of the crime was an unreasonable determination of the facts in light of the
evidence presented during the state court proceedings. I’ll take that issue up first before
moving on to the specific claims of ineffective assistance of counsel.
1.

Summary of the Video Recording

At the post-conviction relief stage, the State courts considered the video recording
of the shootings as they assessed Coleman’s ineffective assistance of counsel claims.
Coleman takes issue with the State courts’ summary of the video recording:
The video taped recording of the actual shooting herein . . . shows Dye
entering the backyard until he is twice shot by Coleman; Dye has his gun to
his side, and is walking in the direction of and looking at his son, [Jackson].
Coleman appears from the shadow and from the side and behind Dye, and
as Dye walks past [Coleman] with his gun down, Coleman raised his own
gun and shoots Dye in the back of his head behind his ear. As Dye falls to the
ground, Coleman shoots him again. It is not until this separate and distinct
crime occurs that Dye’s son [Jackson] pulls his weapon and shoots at
Coleman. The evidence presented at trial was also that after the shooting,

14

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 15 of 26

[Coleman] paced in the backyard, had a cell phone but did not call
emergency personnel or law enforcement, but rather fled with his weapon,
later throwing the gun into a body of water and left the state.
ECF 7-17 at 7-8.
Coleman argues that this fact summary: (1) wrongfully implies that Coleman
shot Dye for the second time after he fell to the ground but he fired this shot when
Dye was standing; (2) wrongfully states that Coleman appeared from a shadow but
Dye had full vision of Coleman from the moment he entered the backyard; and (3)
wrongfully states that Coleman appeared from behind Dye and that he shot Dye in
the back of the head as Dye walked past Coleman. I have reviewed the video
recording. The first two statements accurately characterize the events even if they
could have been more precise and, perhaps, more fairly phrased. I agree with
Coleman that the third statement is inaccurate but not to an unreasonable degree
when considering the perspective of the surveillance camera and that Dye
seemingly intended to walk past Coleman and was only one or two steps from
doing so. Accordingly, I cannot conclude that the Court of Appeals of Indiana based
its decision on an unreasonable determination of the facts in light of the evidence
presented during the State court proceedings.

15

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 16 of 26

2.

Counsel’s Performance During Voir Dire

Coleman argues that his trial counsel was ineffective when he failed to
question the jurors in voir dire about their views on self defense. The Court of
Appeals of Indiana found that Coleman did not show deficient performance because
the prosecution asked the jurors about their ability to assess the self defense issue
and trial counsel chose to focus on studying the jurors as they responded to the
prosecution’s questions. ECF 7-17 at 9-11. The appellate court also found that
Coleman did not demonstrate that he was prejudiced by trial counsel’s voir dire
strategy. Id.
After reviewing the record, I find that the appellate court’s determination
regarding trial counsel’s failure to question the jurors in voir dire was not
objectively unreasonable. During voir dire, trial counsel stated that he had no
questions for the jurors due to the prosecution’s thorough line of questioning, which
suggests a strategic decision. Voir Dire Tr. 72. Additionally, regarding the prejudice
prong, Coleman offers no evidence to show that more voir dire questioning would
have changed the outcome of the trial but merely speculates that the jurors may not
have believed in self defense. Because the appellate court’s determination was not
unreasonable, the claim that trial counsel was ineffective for failing to question
jurors regarding self defense is not a basis for habeas relief.

16

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 17 of 26

3.

Cross Examination of Dye

Coleman argues that trial counsel was ineffective for failing to impeach Dye
with inconsistent testimony from the first trial and pending charges and failing to
question Dye regarding his gun. The first inconsistency highlighted by Coleman is
that, at the first trial, Dye testified that, prior to the shootings, he might have asked
Jackson about Omar Sharpe’s location, but, at the second trial, he testified that he
did not say anything. First Trial Tr.135-36; Second Trial Tr. 156. Coleman also notes
the following inconsistency in the testimony regarding Coleman’s involvement in
the prior robbery of Dye. At the first trial here’s what Dye said:
Trial Counsel: And you didn’t – you knew that [Coleman] wasn’t involved
in this robbery?
Dye: Well, I protected him to the end. Anytime somebody would ask me I
would always say no. [Coleman] ain’t have nothing to do with it. That was
my take on it.
And then at the second trial, here’s what he said:
Trial Counsel: Okay. You knew Tyrus didn’t have anything to do with the robbery,
right, the – Omar’s robbery of you?
Dye: At first. I mean, when it first happened, you know, I gave him the benefit of
the doubt, you know. Everybody else, though, kept putting him in it, but I protected
him til the end.
First Trial Tr. 151; Second Trial Tr. 160. In my view, these are trifling discrepancies in Dye’s
testimony. Trial counsel may have felt that pointing out such modest inconsistencies would
have been silly and nitpicky. That’s a judgment call.

17

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 18 of 26

The Court of Appeals’ determined that counsels’ failure to impeach did not result
in prejudice under Strickland; that decision was entirely reasonable. After reviewing the
record, I find that the State court’s determination regarding trial counsel’s failure to
impeach Dye was not objectively unreasonable. Coleman argues that the failure to impeach
prejudiced him because the prosecution’s case primarily relied on Dye’s testimony and the
video recording, which meant that Dye’s credibility was pivotal to the jury’s decision.
Coleman does not further elaborate on this argument, and it is not clear that Dye’s
credibility was a material consideration by the jury. The entire episode was captured on
video for the jury to review. In all likelihood, the video is what made the case. In any
event, Coleman has not cited any portion of Dye’s testimony that substantially undermined
his defense.
Coleman also argues that trial counsel was ineffective for failing to ask Dye whether
his gun was loaded. The appellate court rejected this claim, reasoning that whether the gun
was loaded was irrelevant because Coleman had no knowledge regarding this detail. ECF
7-17 at 13. In other words, whether the gun was loaded or not was neither here nor there
because there was no way for Coleman to have known this, and that is the only person that
matters. The court concluded that asking this question would not have changed the
outcome of the proceedings, and therefore there is no prejudice under Strickland. This
conclusion is entirely reasonable.

18

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 19 of 26

4.

Counsel’s Handling of Character Witnesses

Coleman argues that trial counsel was ineffective because trial counsel intended to
call three character witnesses at trial who would have testified regarding Coleman’s
reputation for truthfulness but were excluded due to trial counsel’s failure to advise them
of a separation order. The appellate court rejected this claim based on lack of prejudice,
citing Indiana Rule of Evidence 608 and reasoning that character testimony would not have
been admissible because the prosecution did not attack Coleman’s character for
truthfulness. ECF 7-17 at 14-15.
Though Coleman argues that the prosecution did attack his character for
truthfulness, I find that the appellate court’s finding of no prejudice was not objectively
unreasonable. As discussed by the appellate court, the trial transcript shows that trial
counsel had decided to call only one character witness, Thomas Rogers. Second Trial Tr.
453-54. The trial court excluded Rogers’ testimony because he violated the separation order
but also because Rogers did not have sufficient knowledge regarding Coleman’s reputation
in the community. Id. at 470-76. Therefore, Rogers’ testimony would have been excluded
anyway, even if trial counsel had properly advised Rogers of the separation order. In any
event, in the face of compelling video evidence of the shooting, it is difficult to see how
character witnesses would have made any difference in this case. Because the appellate
court’s determination was not unreasonable, the claim regarding trial counsel’s failure to
introduce character testimony is not a basis for habeas relief.

19

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 20 of 26

5.

Counsel’s Failure to Call Witnesses Omar Sharpe and LaQuisha Hunt

Coleman argues that trial counsel was ineffective by failing to call Omar Sharpe and
LaQuisha Hunt as witnesses. He argues that Sharpe’s testimony would have established
that Coleman was not involved in the robbery of Omar Sharpe four months prior to the
incident for which Coleman was on trial. He further claims that Sharpe would have
testified that Jackson was aggressive and enraged. The appellate court found that trial
counsel did not perform deficiently because trial counsel had no reason to anticipate that
the prosecution would suggest that Coleman was involved in the robbery. ECF 7-17 at 1517.
Coleman takes issue with the State court’s characterization of the decision not to call
Sharpe as strategic, pointing to trial counsel’s testimony during the post-conviction relief
stage. There, trial counsel testified that, on the third day of the trial, he hastily had Sharpe
returned to custody because he was discouraged by what had happened at trial. PCR Tr.
65-69. It is questionable whether trial counsel’s handling of Sharpe was deficient
performance or not. But there was no prejudice in any event. As the respondent argued
on appeal at the post-conviction relief stage, (1) the value of Sharpe’s testimony was to
bolster Coleman’s testimony that he did not participate in the robbery of Dye; (2) Sharpe’s
testimony could have prejudiced Coleman’s case by contradicting Coleman’s testimony
and placing even more focus on the robbery instead of the shooting; and (3) in any event,
the prosecution only briefly implied during closing argument that Coleman might have
participated in the robbery. ECF 7-15 at 30-33. Considered together, and in the face of

20

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 21 of 26

strong evidence of Coleman’s guilt in the form of video evidence, it is doubtful that
Sharpe’s testimony would have changed the outcome of the trial.
Coleman argues that LaQuisha Hunt’s testimony would have corroborated his
testimony about a threatening telephone call he received from Dye. The appellate court
denied this claim based on lack of prejudice, describing Hunt’s testimony during the postconviction evidentiary hearing as fabricated and imprecise. ECF 7-17 at 15-17. Coleman
responds that Hunt’s credibility was not challenged when she testified at his first trial. On
cross-examination at the evidentiary hearing, the respondent questioned Hunt on how she
was able to identify Dye’s voice, and she admitted that she had never met him or heard his
voice before that telephone call. PCR Tr. 246-50. By contrast, at the first trial, the
prosecution did not meaningfully challenge Hunt’s testimony. Hunt Tr. 1-5. Though this
contrast demonstrates that the prosecution could have chosen not to challenge Hunt’s
testimony, it does not demonstrate that the State court’s assessment of the testimony or its
determination regarding lack of prejudice was unreasonable. Therefore, the claim that trial
counsel was ineffective by failing to call Omar Sharpe and LaQuisha Hunt as witnesses is
not a basis for habeas relief.
6.

Presentation of the Video Recording

Coleman argues that trial counsel was ineffective for showing at trial a cropped
version of the video recording that did not show Jackson drawing and firing his gun. He
argues that this prejudiced him by allowing the jury to infer that Coleman attacked Jackson
without provocation. The Court of Appeals of Indiana found no prejudice because two

21

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 22 of 26

eyewitnesses testified that Jackson was armed. ECF 7-17 at 19. Coleman responds that an
uncropped version of the video would have irrefutably demonstrated that his conduct
toward Jackson was an act of self defense.
At trial, Coleman and another witness testified that Jackson had a gun and was
acting erratically at the recording studio; a detective testified regarding the location of the
bullet holes; and the video recording showed the relative positions of Coleman and
Jackson. Second Trial Tr. 86, 310-11, 374-77. From this evidence, a jury could have deduced
that Jackson drew and fired his gun. Moreover, though trial counsel presented the cropped
version of the video recording as a result of a lack of familiarity with the courtroom
technology, he later considered presenting additional evidence to show Jackson’s conduct.
Id. at 447-53. However, after discussing the potential negative consequences of focusing
on Jackson’s conduct with the trial court, trial counsel consulted with Coleman and
declined the opportunity. Id. Therefore, trial counsel made a strategic decision not to
present additional evidence, which suggests that he did not perform deficiently in that
respect. The appellate court’s decision was thus not unreasonable, and the claim that trial
counsel was ineffective for showing at trial a cropped version of the video recording that
did not show Jackson drawing and firing his gun is not a basis for habeas relief.
7.

Inconsistent Defense Theories

Coleman argues that trial counsel was ineffective for arguing at closing that
Coleman had no intent to kill and that he acted in self defense. He says these are
inconsistent theories and arguing inconsistent theories to a jury is not a wise thing to do.

22

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 23 of 26

This argument is a bit perplexing because it is not at all clear that the two arguments are
even inconsistent. It is plausible that an individual could shoot at another individual with
the intent of defending himself without the intent to kill. Indeed, Coleman testified that this
is precisely what happened:
Trial Counsel: [Coleman], was your intent when you fired at [Dye] to end his
life?
Coleman: No. No. ‘Cause if I wanted him dead I could have shot–
Prosecution: Objection. Calls for narrative.
The Court: I’m sorry.
Prosecution: I said objection. Call for narrative.
The Court: Rephrase your question.
Trial Counsel: Was your intent when you fired at [Dye] to end his life?
The Court: That’s the same question. Rephrase it.
Trial Counsel: What was your intent, [Coleman], when you fired at [Dye]?
Coleman: To get the gun out of his hands.
Trial Counsel: What was your belief as far as the threat that [Dye] post at the
time you fired your gun at [Dye]?
Coleman: I felt he was coming to shoot Omar, me too.
Second Trial Tr. 401-02.
Additionally, it is plausible that an individual reacted in self defense without
enough time for any intent to develop. This theory is reflected in trial counsel’s closing
arguments. Id. at 525-26. Further, during the first stage of closing arguments, the

23

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 24 of 26

prosecution focused solely on the elements of murder, which further suggests that trial
counsel’s decision to respond to the prosecution was sound even assuming that the selfdefense theory was more likely to succeed than arguing lack of intent to kill. Id. at 497-515.
The Court of Appeals of Indiana found that trial counsel made a strategic decision to make
these arguments and did not perform deficiently. ECF 7-17 at 19-20. Based on the
foregoing, that decision was not an unreasonable one.
8.

Cumulative Errors

Coleman argues that even if no individual error was sufficiently prejudicial to merit
habeas corpus relief, the court should grant him relief based on the cumulative prejudice
of all of the errors combined. The Court of Appeals of Indiana found that the cumulative
effect of trial counsel’s errors did not deprive Coleman of his right to effective assistance
of counsel. ECF 7-17 at 24. “[P]rejudice may be based on the cumulative effect of multiple
errors. Although a specific error, standing alone, may be insufficient to undermine the
court’s confidence in the outcome, multiple errors together may be sufficient.” Malone v.
Walls, 538 F.3d 744 (7th Cir. 2008).
After reviewing the record and considering Coleman’s claims of ineffective
assistance claims, I cannot find that the State court’s determination regarding cumulative
error was objectively unreasonable. Trial counsel arguably performed deficiently and
Coleman arguably suffered some prejudice from the cross-examination of Dye, the failure
to call Sharpe and Hunt, and the presentation of the cropped version of the video
recording. However, at trial, the parties presented a substantial amount of evidence

24

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 25 of 26

consisting of testimony from eight prosecution witnesses, including Dye; testimony from
seven defense witnesses, including Coleman; photographs; and a video recording, which
shows Coleman shooting Dye. After weighing the evidence presented at trial against the
cumulative effect of these errors, I cannot conclude that these errors are sufficient to
undermine the outcome of the trial. Based on the foregoing, the claim regarding
cumulative error is not basis for habeas relief.
***
Pursuant to Section 2254 Habeas Corpus Rule 11, I must grant or deny a certificate
of appealability. To obtain a certificate of appealability under 28 U.S.C. § 2253(c), the
petitioner must make a substantial showing of the denial of a constitutional right by
establishing “that reasonable jurists could debate whether (or, for that matter, agree that)
the petition should have been resolved in a different manner or that the issues presented
were adequate to deserve encouragement to proceed further.” Slack v. McDaniel, 529 U.S.
473, 484 (2000). For the reasons explained in this opinion for denying habeas corpus relief,
there is no basis for encouraging Coleman to proceed further. For the same reasons, he may
not appeal in forma pauperis because an appeal could not be taken in good faith.
Accordingly, the court DENIES the habeas corpus petition; DENIES a certificate of
appealability pursuant to Section 2254 Habeas Corpus Rule 11; DENIES leave to appeal
in forma pauperis pursuant to 28 U.S.C. § 1915(a)(3); and DIRECTS the clerk to enter
judgment in favor of the Respondent and against the Petitioner.
SO ORDERED.

25

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 24 filed 05/07/18 page 26 of 26

ENTERED: May 7, 2018.
/s/ Philip P. Simon
Judge
United States District Court

26

Appendix B

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 1 of 9
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
TYRUS D. COLEMAN,
Petitioner,
v.

CAUSE NO.: 3:16-CV-301-PPS-MGG

SUPERINTENDENT,
Respondent.
OPINION AND ORDER
Tyrus D. Coleman, by counsel, filed a motion to reconsider the order denying his
petition for habeas relief under Fed. R. Civ. P. 59(e). “A court may grant a Rule 59(e)
motion to alter or amend the judgment if the movant presents newly discovered
evidence that was not available at the time of trial or if the movant points to evidence in
the record that clearly establishes a manifest error of law or fact.” Matter of Prince, 85
F.3d 314, 324 (7th Cir. 1996); Deutsch v. Burlington N. R.R. Co., 983 F.2d 741, 744 (7th Cir.
1992).
Though Coleman petitioned for habeas relief on numerous grounds, the instant
motion focuses on his claim under the Double Jeopardy Clause. Specifically, he claims
that issue preclusion barred his second trial on the charge for the attempted murder of
Anthony Dye because the jury acquitted him on the charge for the murder of Jermaine
Jackson at his first trial.
Though I provide a more detailed account in the order denying the petition (ECF
23), I will briefly summarize the relevant events. Coleman was convicted based on an

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 2 of 9
incident that occurred in his backyard where he first shot Dye and then turned and shot
Jackson in quick succession. Dye, who was Jackson’s father, survived the shooting.
Jackson did not. The entire incident was captured on videotape.
Coleman was charged with murdering Jackson and attempting to murder Dye.
At the first trial, the court gave a self-defense instruction to the jury. The jury acquitted
Coleman on the murder charge but was unable to unanimously agree on the attempted
murder charge. A mistrial was called on the attempted murder count and that charge
was set for a retrial. Between trials, Coleman moved for dismissal of the attempted
murder count on double jeopardy grounds, arguing that the jury, through the acquittal
of Coleman of the Jackson murder, had necessarily credited his self-defense argument
and thus, based on the language of the self-defense instruction, necessarily found that
he did not commit a crime by shooting Dye. The court disagreed and a second trial
ensued. At that retrial, the jury convicted Coleman on the attempted murder charge. On
direct appeal, the Court of Appeals of Indiana reversed the conviction based on
Coleman’s double jeopardy argument. But the Indiana Supreme Court overturned the
intermediate appellate court’s decision and affirmed the conviction.
In the petition, Coleman claimed that the Indiana Supreme Court made an
objectively unreasonable determination by finding that issue preclusion did not apply
to the second trial. The Double Jeopardy Clause of the Fifth Amendment “was designed
to protect an individual from being subjected to the hazards of trial and possible
conviction more than once for an alleged offense.” Green v. United States, 355 U.S. 184,
187 (1957). The doctrine of issue preclusion “is embodied in the Fifth Amendment

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 3 of 9
guarantee against double jeopardy.” Ashe v. Swenson, 397 U.S. 436, 445 (1970). This
means that “when an issue of ultimate fact has once been determined by a valid and
final judgment, that issue cannot again be litigated between the same parties in any
future lawsuit.” Id. at 443. “Where a previous judgment of acquittal was based upon a
general verdict, as is usually the case, this approach requires a court to examine the
record of a prior proceeding, taking into account the pleadings, evidence, charge, and
other relevant matter, and conclude whether a rational jury could have grounded its
verdict upon an issue other than that which the defendant seeks to foreclose from
consideration.” Id.
Upon review of the Indiana Supreme Court decision, I observed a disparity
between Coleman’s arguments and the Indiana Supreme Court’s reasoning. Here’s
what Coleman argued:
(1) The jury acquitted Coleman of the Jackson murder charge on the basis
of self-defense;
(2) For such an acquittal, according to the jury instructions, the jury was
required to find, beyond a reasonable doubt, that Coleman did not
commit any crime that was “directly and immediately connected to the
confrontation”;
(3) When considering the charge of murder, the jury interpreted “the
confrontation” as the shooting of Jackson -- as opposed to interpreting
“the confrontation” as encompassing both the shooting of Dye and the
shooting of Jackson.
(4) The shooting of Dye was directly and immediately connected to the
shooting of Jackson; and
(5) Therefore, the jury determined that the shooting of Dye was not a
crime.

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 4 of 9
The Indiana Supreme Court construed Coleman’s brief as contending that
“because of the brief interval between the two shootings, they necessarily amounted to
a single transaction” and as arguing that “Coleman’s general fear of death or great
bodily harm applied equally to [Jackson] and Dye.” ECF 7-11 at 5. The court reasoned
that the jury could have reasonably found that Coleman acted in self-defense only with
respect Jackson. Though the Indiana Supreme Court’s reasoning was internally sound,
the court misconstrued Coleman’s argument; Coleman’s argument requires the
assumption the two shootings were each separate transactions (or confrontations) and
focuses on the language of the self-defense jury instruction. The court did not discuss
the jury instruction and thus did not meaningfully address Coleman’s argument or the
reasoning of the lower appellate court.
Faced with this unusual straw-man situation, I found that this was a case in
which “the last state court to render a decision offers a bad reason for its decision” and
applied the deferential standard of review set forth in Brady v. Pfister, 711 F.3d 818 (7th
Cir. 2013), and Whatley v. Zatecky, 833 F.3d 762, 775 (7th Cir. 2016), to the judgment of
the Indiana Supreme Court.
In accordance with Ashe, I examined the record for a possible alternative bases to
explain the acquittal. In that process, I considered that one of the things the jury was
required to decide was whether Coleman “knowingly” killed Jackson. I noted that,
during Coleman’s testimony, he did not expressly admit that he had knowingly killed
Jackson and testified that “everything went so crazy fast.” Trial counsel used this
testimony to invite the jury to acquit Coleman based on the “knowingly” element. In

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 5 of 9
making that argument, Coleman’s counsel relied on Coleman’s testimony as well as the
short, three-second duration of the shootings as reflected in the videotape. Ultimately, I
concluded that a rational jury could have acquitted Coleman on the grounds that the
prosecution had failed to prove beyond a reasonable doubt that Coleman had
knowingly killed Jackson. I therefore denied Coleman habeas relief.
Coleman now argues that I should have applied a de novo standard of review.
Under this standard, “[i]f the record as a whole supports the state court’s outcome . . .
the correct result would be to deny the petition for a writ of habeas corpus.” Brady, 711
F.3d at 827. Even assuming that de novo is the proper standard of review, it would not
have changed the decision on the issue preclusion claim. This is not a case in which I
disagreed with the State court’s judgment but stopped short of finding it unreasonable.
Rather, I agree with the judgment of the Indiana Supreme Court and, for the reasons I
have stated, would not have granted habeas relief based on the issue preclusion claim
even if I had applied the de novo standard of review.
Coleman also argues that the respondent, through counsel, conceded that the
jury necessarily acquitted him based on self-defense during oral arguments before the
Indiana Supreme Court. “Judicial admissions are formal concessions in the pleadings,
or stipulations by a party or its counsel, that are binding upon the party making them.
They may not be controverted at trial or on appeal.” Keller v. United States, 58 F.3d 1194,
1199 (7th Cir. 1995). “[A] verbal admission at . . . oral argument is a binding judicial
admission, the same as any other formal concession made during the course of
proceedings.” McCaskill v. SCI Mgmt. Corp., 298 F.3d 677, 680 (7th Cir. 2002).

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 6 of 9
Nevertheless, whether to treat an allegation as a judicial admission is discretionary, and
the court may allow a judicial admission to be withdrawn. Cooper v. Carl A. Nelson &
Co., 211 F.3d 1008, 1014 (7th Cir. 2000); Solon v. Gary Cmty. Sch. Corp., 180 F.3d 844, 858
(7th Cir. 1999).
It is true that the respondent’s counsel made a statement during oral argument
that could have been deemed a judicial admission. But the Indiana Supreme Court did
not consider the statement to be binding but instead merely assumed that it was true for
the sake of argument. ECF 7-11 at 5. Moreover, the record flatly contradicts the oral
argument statement; as I have explained, the record contains at least one alternative
rationale for acquitting Coleman. Therefore, I also decline to consider this statement to
be a binding judicial admission.
Furthermore, the respondent suggested yet another alternative rationale for the
acquittal of Coleman. Recall that Coleman’s issue preclusion argument requires the
assumption that the jury interpreted the self-defense instruction’s reference to “the
confrontation” as the shooting of Jackson separate and apart from the shooting of Dye.
The respondent argued that the jury may have rationally interpreted “the
confrontation” as encompassing the events from the time Jackson arrived at Coleman’s
recording studio until the shooting of Jackson. ECF 7 at 12-13. This would also include
the shooting of Dye. Under this interpretation, the jury could have found that Coleman
did not commit any crime that was “directly and immediately connected to the
confrontation” without consideration of whether the shooting of Dye was a crime.
Significantly, the jury was presented with a single self-defense instruction for both

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 7 of 9
charges; the jury instructions did not define “confrontation”; and the two shootings
occurred over the course of three seconds. Considering the foregoing, the jury could
have rationally interpreted “the confrontation” as encompassing both shootings and
then rationally acquitted Coleman based on this broader interpretation.
Coleman further argues that I improperly considered the hung count as part of
the issue preclusion analysis, relying on Yeager v. United States, 557 U.S. 110 (2009),
which holds that “the consideration of hung counts has no place in the issue-preclusion
analysis.” In the opinion denying the habeas petition, I outlined Coleman’s argument
that, by acquitting Coleman of murdering Jackson, the jury determined that Coleman
did not commit a crime by shooting Dye. I then posited, “why then did the jury not
acquit him of the attempted murder?” This was a rhetorical question meant to highlight
the paradoxical nature of Coleman’s argument: taking Coleman’s argument at face
value means that the jury unanimously decided that Coleman’s shooting of Dye was
not a crime while simultaneously declining to acquit Coleman for attempting to murder
Dye.
In generally prohibiting the consideration of hung counts, the primary concern of
the United States Supreme Court was to prevent courts from speculating about a jury’s
reasoning for what amounts to a legal nullity. Yeager, 557 U.S. at 122 (2009). The
rhetorical question was not speculation; it was a simple observation that, as the
Supreme Court has recognized, a hung count represents “a jury’s failure to reach a
decision.” Bravo-Fernandez v. United States, 137 S. Ct. 352, 360 (2016).

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 8 of 9
Coleman next argues that I should have issued a certificate of appealability on
the issue preclusion claim. To obtain a certificate of appealability under 28 U.S.C. §
2253(c), the petitioner must make a substantial showing of the denial of a constitutional
right by establishing “that reasonable jurists could debate whether (or, for that matter,
agree that) the petition should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). After considering the arguments presented in the
instant motion, I find that a reasonable jurist could agree that this petition should have
been resolved in a different manner. Therefore, I grant a certificate of appealability on
the issues of the proper standard of review for the issue preclusion claim and whether,
under that standard, the issue preclusion claim entitles Coleman to habeas relief.
As a final matter, I note that attorneys Branka Cimesa and Jennifer H. Berman
entered their appearance on behalf of Coleman, who had filed and litigated this case,
except for the instant motion, as a pro se litigant. Regardless of whether I agree with
their arguments, I commend Ms. Cimesa and Ms. Berman for their excellent
representation of Coleman and their vigorous advocacy towards that end.
For these reasons, the court:
(1) GRANTS the motion to alter judgment (ECF 27) with respect to the certificate
of appealability but DENIES the motion in all other respects; and
(2) GRANTS a certificate of appealability pursuant to 28 U.S.C. § 2253(c).
SO ORDERED on September 20, 2018.

Appendix C

USDC IN/ND case 3:16-cv-00301-PPS-MGG document 37 filed 09/20/18 page 9 of 9
s/ Philip P. Simon
JUDGE
UNITED STATES DISTRICT COURT

Appendix C

Case: 18-3264

Document: 55

Filed: 04/23/2021

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 23, 2021

Before
FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge

No. 18-3264

Appeal from the United States
District Court for the Northern
District of Indiana, South Bend
Division.

TYRUS D. COLEMAN,
Petitioner-Appellant,
v.
RON NEAL, Warden, Indiana State Prison,
Respondent-Appellee.

No. 3:16-cv-301 PPS
Philip P. Simon, Judge.

Order
Petitioner-Appellant filed a petition for rehearing and rehearing en banc on April 8,
2021. No judge in regular active service has requested a vote on the petition for
rehearing en banc,* and all of the judges on the panel have voted to deny rehearing. The
petition for rehearing is therefore DENIED.

*

Judge Scudder did not participate in the consideration of this petition.

Appendix D

ATIORNEYS FOR APPELLEE
Gregory F. Zoeller
Attomey General of Indiana

ATIORNEY FOR APPELLANT
Cara Schaefer Wieneke
Wieneke Law Office, LLC
Indianapolis, Indiana

Ian McLean
Deputy Attomey General
Indianapolis, Indiana

3Jn tbt

1Jnbtana �upreme �ourt
No. 20S03-1008-CR-458
TYRUS D. COLEMAN,

Appellant (Defendant below),
V.

STATE OF INDIANA,

Appellee (Plaintiff below).

Appeal from the Elkhart Circuit Comt, No. 20C01-0703-MR-l
The Honorable Teny C. Shewmaker, Judge
On Petition To Transfer from the Indiana Comt of Appeals, No. 20A03-0904-CR-185

May 18, 2011

Rucker, Justice.

Appendix E

In this opinion we discuss among other things whether the Double Jeopardy Clause of the
United States Constitution precludes the State from retiying a defendant where in the first tiial
the jury acquitted the defendant of murder with respect to one victim but failed to return a verdict
on a charge of attempted murder with respect to another victim. We conclude it does not.
Facts and Procedural History

In a ti-agic incident occuning March 18, 2007, Tyrus Coleman shot his fiiends Anthony
Dye and Dye's son Jermaine Jackson dming a confrontation on Coleman's prope1ty, where
Coleman operated a music recording studio.

The confrontation stemmed from an event

occmTing approximately fom months earlier in which Omar Sharpe, one of Coleman's musician
clients, robbed Dye at gunpoint. Coleman retrieved pa1t of the stolen prope1ty from Sharpe and
returned it to Dye. Jermaine 1 was initated when he later learned that Sharpe had robbed his
father, but Dye asked him not to get involved. On the afternoon of the shootings, Je1maine
discovered that Sharpe was present at Coleman's studio and frantically phoned Dye to "[c ]ome
over here right now." Tr. 1 at 131.2 Aimed with a handgun Dye headed to Coleman's studio. In
the meantime an armed and agitated Jermaine pushed open the door to the studio and attempted
to enter. Sharpe, who was present inside, prevented Je1maine's enhy and closed the door.
Exiting the studio Coleman attempted to calm Je1maine and to dissuade him from trying to enter.
Coleman called a neighbor to come over to help calm Je1maine; he also called his business
pa1tner to info1m him of the situation. The neighbor testified that he tried to talk with Je1maine
by telling him what he [Je1maine] was doing "wasn't wo1th it. Just go ahead and leave. There
was kids around and people around that didn't have nothing to do with what they was angry
about." Tr. 1 at 220-21. According to the witness Jermaine responded by saying, "F**k that.
He didn't think about that s**t when he did the s**t to my Daddy." Tr. 1 at 221. Coleman
armed himself, Tr. 1 at 286, and walked back and forth in front of the studio door holding his

1

For the sake of consistency with the paities' briefs, we refer to Je1maine Jackson by first name and the
other actors by last name.
2

We cite the transc1ipt from Coleman's first tiial as "Tr. I" and the transcript from his second trial as "Tr.
2."

Appendix E

2

handgun at his side. State's Ex. 25 at 03:32:20. 3 As Coleman was making a phone call, Dye
came into the yard through a front gate canying a handgun which was pointed toward the
ground. Dye strode toward his son Je1maine, who was standing next to Coleman on the patio in
front of the studio. Within three seconds, the following occurred: Dye stepped onto the patio
where Je1maine and Coleman were standing. As Dye stepped in front of Coleman, Coleman
raised his gun and fired at Dye, who immediately fell to the ground. Coleman then shot Dye a
second time. At that point Coleman "turned to Je1maine." Tr. 1 at 330. Coleman saw that
Je1maine's handgun, which before that time had been concealed under his shiit and in a holster,
was "pointed at [Coleman]," Tr. 1 at 330; and Coleman shot Jermaine. Je1maine fell to the
ground, State's Ex. 25 at 03:35:33-03:35:36, and died at the scene as a result of his injuries.
After the shooting, Coleman drove to Milwaukee disposing of his weapon along the way.
Several days later he returned to Elkhart and smTendered to the police.
The State charged Coleman with murder, a felony, for the death of Je1maine and
attempted murder, a Class A felony, for shooting Dye. Dming a jury trial conducted in Febmary
2008 Coleman testified and admitted the shootings, but contended that his actions against both
Je1maine and Dye were justified on the basis of self-defense. The jury returned a verdict of not
guilty on the murder charge, but was unable to reach a verdict on the attempted murder charge.
The trial comt thus declared a mistrial on that count and scheduled another tiial. P1ior to retiial
Coleman filed a motion to dismiss contending a subsequent trial on attempted murder was baned
by collateral estoppel and would therefore violate the Double Jeopardy Clauses of both the
United States and Indiana Constitutions. See Appellant's App. at 147. After a hearing, the tiial
comt denied the motion. A rehial ensued, at the conclusion of which the jmy found Coleman
guilty as charged.

Thereafter the tiial comt sentenced him to a term of fo1ty-five years.

Coleman appealed raising several issues for review. In a divided opinion the Court of Appeals
reversed Coleman's conviction on grounds of collateral estoppel. Coleman v. State, 924 N.E.2d
659 (Ind. Ct. App. 2010). Having previously granted tl"ansfer thereby vacating the opinion of the

3

As pat1 of the recording studio's security system, video cameras were present in the vicinity of the
sn1dio. Tr. 1 at 187. The secmity system recorded the events of the day onto DVDs, which were
admitted into evidence as State's Exhibits 25 and 34. We reference State's Exhibit 25 in hours, minutes,
and seconds as time-stamped on the video recording.

Appendix E

3

Court of Appeals, see Ind. Appellate Rule 58(A), we now affum Coleman's conviction.
Additional facts are set fmih below where necessary.
Discussion

I.
Collateral Estoppel

The Double Jeopardy Clause contained in the Fifth Amendment to the United States
Constitution provides, "[N]or shall any person be subject for the same offense to be twice put in
jeopardy of life or limb.',4 Collateral estoppel (also refeITed to as issue preclusion) has been
characterized as an "awkward phrase" however "it stands for an extremely important principle in
our adversary system ofjustice. It means sin1ply that when an issue of ultimate fact has once
been determined by a valid and finaljudgment, that issue cannot again be litigated between the
same parties in any foture lawsuit." Ashe v. Swenson, 397 U.S. 436, 443 (1970). Collateral
estoppel is not the same as double jeopardy, but rather it is embodied within the protection
against double jeopardy. "' [T]he traditional bar ofjeopardy prohibits the prosecution of the
c1ime itself, whereas collateral estoppel, in a more modest fashion, simply forbids the
government from relitigating certain facts in order to establish the fact of the crime."' Little v.
State, 501 N.E.2d 412, 414 (Ind. 1986) (quoting United States v. Mock, 604 F.2d 341, 343-44
(5th Cir. 1979)). In essence the dochine of collateral estoppel "precludes the Government from
relitigating any issue that was necessarily decided by ajmy's acquittal in a prior trial." Yeager
v. United States, _U.S._, _, 129 S. Ct. 2360, 2366 (2009). To decipher what a jmy
necessai-ily decided in a prior trial, courts should "examine the record of a prior proceeding,
taking into account the pleadings, evidence, charge, and other relevant matter, and conclude
whether a rationaljury could have grounded its verdict upon an issue other than that which the
defendant seeks to foreclose from consideration." Id. at 2367 (quoting Ashe, 397 U.S. at 444).

4

A similarly worded provision of the Indiana Constitution provides, ''No person shall be put in jeopardy
twice for the same offense." Ind. Const. ait. 1, § 14. Although Coleman cites A11icle 1 section 14, he
advances no argument concerning the Indiana Constitution. We thus address the Double Jeopardy claim
under the Federal Constitution only.

Appendix E

4

Coleman contends the trial comt ened in denying his motion to dismiss the attempted
murder charge following the first trial. He argues the second trial violated his protection against
double jeopardy by allowing the State to relitigate an issue ah·eady definitively decided in the
first trial, namely, that he acted in self-defense when shooting Dye. According to Coleman, "the
jmy's acquittal of Coleman on the murder charge could only have been based on its
dete1mination that Coleman acted in defense of himself and/or another person." Br. of Appellant
at 16.
A valid claim of self-defense is legal justification for an othe1wise criminal act.
Randolph v. State, 755 N.E.2d 572, 575 (Ind. 2001). In order to prevail on a claim of self­
defense a defendant must show: (1) he was in a place where he had a right to be; (2) he acted
without fault; and (3) he had a reasonable fear of death or great bodily haim. Id. at 576; see also
Ind. Code § 35-41-3-2. Here, Coleman seems to contend that because of the b1ief interval
between the two shootings, they necessai·ily amounted to a single transaction.

Tims, the

conclusion is that Coleman's general fear of death or great bodily ha1m applied equally to
Je1maine and Dye. This argument is unavailing. To begin, Coleman was charged separately
with the murder of Je1maine and the attempted murder of Dye. See Appellant's App. at 17. It is
hue that in the first trial, the trial comt did not instiuct the jmy on the elements of self-defense
separately with respect to each victin1.

See Appellant's App. at 112.

However, dming

summation Coleman's counsel specifically addressed the separate shootings and argued each
was justified by Coleman's reasonable imminent fear of death or serious bodily injmy from Dye,
and then from Je1maine. See Tr. 1 at 378, 382-83, 388, 390-94.
Fmther, for the sake of argument we accept as trne that the jury's acquittal of Coleman
on the murder charge in the first t1ial was based on its belief that Coleman acted in self-defense.
But, the jury could have rationally concluded that the act of self-defense was in response to the
conduct of Je1maine only. The jmy was not bound to believe that Coleman likewise acted in
self-defense with respect to Dye. Stated differently, the jmy could ve1y well have detennined
that Je1maine so threatened Coleman and others on the prope1ty that he was justified in using
deadly force to protect himself and others from Je1maine. The record shows for example that an
aimed and agitated Je1maine had attempted to gain access to the studio in pursuit of Sharpe, and

Appendix E

5

that although Coleman fired his weapon first at Dye, it was only Je1maine and not Dye who
actually pointed his own weapon at Coleman. And there was testimony that Je1maine fired his
weapon in Coleman's direction. Tr. 1 at 208, 300-02. Coleman responded by firing at Je1maine
resulting in fatal injmy. In essence the acquittal relating to the murder of Je1maine even if based
on self-defense did not amount to the jmy determining that Coleman acted in self-defense with
respect to the attempted mmder of Dye. Thus, in ret1ying Coleman the State did not relitigate an
issue that was necessarily decided by the jury in the first tiial. Instead, the jmy was asked to
make the determination of whether Coleman acted in self-defense when he shot Dye. This issue
was not decided dming the first trial. Thus, collateral estoppel did not bar relitigation. And the
tiial comt cmTectly denied Coleman's motion to dismiss. Because the Comt of Appeals reversed
the judgment of the tiial comt on this issue, it did not address Coleman's remaining claims. We
do so now.
II.
Prosecutorial Misconduct

Coleman contends the State engaged in prosecutorial misconduct by (i) presenting false
testimony that the State knew to be false, and (ii) finther using the false testimony to the State's
advantage during closing argument. The essential facts are these. Dming the first trial, Dye
testified that upon enteiing Coleman's backyard he "asked [Je1maine] where [Sharpe] was at"
and he "might" have done so using foul and offensive language, specifically "where that n****r
at[?]" Tr. 1 at 135. During the second tiial, Dye responded "No" when the prosecutor asked,
"Did you say anything to [Coleman]?" Tr. 2 at 146. On cross-examination Coleman's counsel
asked Dye if he had said "anything to anybody'' [including Jermaine] as he walked into the
backyard, to which Dye responded ''No." Tr. 2 at 156. Coleman's counsel made no effmt to
confront Dye with his inconsistent statement from the first tiial, and the prosecutor did not point
out the inconsistency.

In his closing argument the prosecutor highlighted Coleman's own

statement given to police in which he said that "[Dye] didn't say anything" when he entered the
yard, as well as Dye's trial testimony to that effect. Tr. 2 at 535-36.

Appendix E

6

Coleman does not identify any objection presented at trial to the asserted prosecutorial
misconduct and concedes "[u]nfortunately, the claim has not been properly preserved in this case
...." Br.of Appellant at 24. See Johnson v. State, 7 25 N.E.2d 864, 867 (Ind. 2000) (declaring
that a paity's failure to present a contemporaneous trial objection asserting prosecuto1ial
misconduct results in waiver of appellate review).
If a defendant properly raises and preserves the issue of prosecuto1ial misconduct, then
the reviewing court detennines (1) whether the prosecutor engaged in misconduct, and if so, ( 2)
whether the misconduct, under all of the circumstances, placed the defendant in a position of
grave pe1il to which he or she would not have been subjected. Baer v. State, 866 N.E.2d 75 2,
756 (Ind. 2007). Where a claim of prosecutorial misconduct has not been properly preserved,
our standai·d for review is different from that of a properly preserved claim. More specifically,
the defendant must establish not only the grounds for the misconduct but also the additional
grounds for fundamental enor. Cooper v. State, 854 N.E.2d 831, 835 (Ind. 2006). Fundamental
e1rnr is an extremely naiTow exception that allows a defendant to avoid waiver of an issue. It is
enor that makes "a fair tiial impossible or constitute[s] clearly blatant violations of basic and
elementaiy p1inciples of due process ...present[ing] an undeniable and substantial potential for
ha1m." Benson v. State, 76 2 N.E.2d 748, 756 (Ind. 200 2).
In this case we do not reach the question of fundamental enor because we conclude
Coleman has not carlied his burden of demonsti·ating misconduct. It is of course tlue that "[t]he
prosecution may not stand mute while testimony known to be false is received into evidence.
False evidence, when it appears, must not go unconected." Sigler v.State, 700 N.E.2d 809, 813
(Ind. Ct. App. 1998) (internal citation omitted). But the fact of contradictmy or inconsistent
testimony does not mean the testimony is false. See Timberlake v. State, 690 N.E.2d 243, 253
(Ind. 1997) ("While the knowing use of pe1jured testin1ony may constitute prosecutmial
misconduct, conu·adictmy or inconsistent testimony by a witness does not constitute perjury.").
Dye's testimony dming retrial that he said nothing when ente1ing Coleman's yard is at most
inconsistent with his testimony during the first u·ial. To refer to the statement as false is mere
hyperbole.

The conu·adictory statement was elicited by Coleman's counsel on cross­

examination. However, for reasons not clear from the record before us Coleman's counsel did

Appendix E

7

not capitalize on this opp01tunity by confronting Dye with this apparent inconsistency. When
the State then refened to Dye's testimony in its closing argument, it first highlighted Coleman's
own statement to police that Dye had said nothing. This was fair comment on the evidence.
These acts do not rise to the level of prosecutorial misconduct. Coleman's claim on this issue
therefore fails.
III.
Exclusion of Evidence

Coleman next contends the trial comi ened by excluding the introduction of certain
evidence. According to Coleman not only was most of the evidence admitted during the first
trial, but also the evidence was presented by the State in its case-in-chief during the first trial. He
argues, "[o]n retrial, however, the State chose not to present the evidence and even objected to its
use by the defense." Br. of Appellant at 28.5 Specifically Coleman refers to statements made by
Dye during the first trial and statements attributable to Jermaine that were introduced into
evidence dming the first tr·ial. Coleman also asserts enor in the tr·ial comi's refusal to allow
evidence that he was acquitted of Jermaine's mmder.
A.

Statements made by Dye

As discussed in Paii II above, dming the first trial Dye testified that upon entering
Coleman's backyard he "asked [Jermaine] where [Sharpe] was at" and he "might" have done so
using offensive language. Tr. 1 at 135. On retrial, the trial court pennitted Coleman to testify to
the exact words Dye uttered. However, sustaining the State's hearsay objection, the trial court
prohibited three defense witnesses from so testifying.

Instead, the trial couri allowed the

witnesses to testify that Dye said "something" as he entered the yard. Coleman claims enor.

5

Other than complaining that "[t]he retlial jmy was presented with a ve1y different case than the first
jmy," Br. ofAppellant at 27, Coleman makes no claim ofe1rnr in this regard and we find none. The fact
ofthe matter is that the second trial was necessa1ily different. In the first t:Iial Coleman was faced with
two separate charges against two separate alleged victims. And the evidence concerning these charges
was overlapping. By contrast, in the second t:Iial there was only one charge against one alleged victim.
The State thus structmed its presentation ofthe evidence to reflect this reality.

Appendix E

8

Hearsay is an out-of-comt statement offered in comt to prove the trnth of the matter
asse1ted.

Ind. Evidence Rule 801(c); Gamer v. State, 777 N.E.2d 721, 724 (Ind. 2002).

Coleman contends the witnesses' statements were not hearsay because they were not offered for
their trnthfulness. Instead, according to Coleman, the statements were offered to show that he
was in fear of his life or the lives of others on his property and thus the statements supp01ted his
clain1 of self-defense.
This Comt has held "[w]hen a claim of self-defense is interposed, any fact which
reasonably would place a person in fear or apprehension of death or great bodily injmy is
admissible." Hirsch v. State, 697 N.E.2d 37, 40 (Ind. 1998) (internal quotation marks omitted).
Thus if Dye's words could reasonably be inte1preted as placing Coleman in fear or apprehension
of death or great bodily haim, then they were relevant and admissible without regard to their
trnthfulness. The problem here however is nowhere does Coleman contend that the words
uttered by Dye placed Coleman in such fear or apprehension. Although Coleman testified to the
precise language used, he did not elaborate on or express any particular concern about the
utterances. Instead the focus of Coleman's self-defense claim was on Dye's overall demeanor,
and the fact that Dye was armed. Coleman testified for example that he believed "[Dye] was
going to come kill us." Tr. 2 at 399. He also testified, "I thought [Dye] was shooting back at
me," Tr. 2 at 399, and that "I felt [Dye] was coming to shoot Omar, me too." Tr. 2 at 402. There
was testimony from other witnesses that Dye spoke "loudly" ai1d he appeared as if he was "on a
mission" and was "angiy." Tr. 2 at 348, 457. There is simply nothing in the record before us
indicating that the proffered statements Dye made were of any pa1ticular concern to Coleman or
others. Thus, even if Dye's exact words were not offered for their trnthfulness and thus were not
hearsay, they were not relevant or admissible, at least through the testimony of third party
witnesses. And this is so because Coleman failed to demonstrate the words placed him or others
in fear or apprehension of great bodily ha1m. Accordingly, although the trial comt ened in
excluding the evidence on grounds of hearsay, the enor was ha1mless because the evidence was
excludable on gi·ounds of relevance. See Lashbrook v. State, 762 N.E.2d 756, 758 (Ind. 2002)
("[A]ppellate review of the exclusion of evidence is not limited to the gi·ounds stated at trial, but
rather the rnling will be upheld if suppo1ted by any valid basis.").

Appendix E

9

B.

Statements attributable to Jennaine

Coleman complains that during tiial he "attempted to present testimony from Yanum
Munay, Willie Williams, and Otis Jackson about statements that Jermaine made that day [the
day of the shootings] in the backyard, but the u-ial comt excluded the evidence." Br. of
Appellant at 31. Essentially, the pmported testimony would have shown that on the day of the
shootings Je1maine made statements demonstrating that he was angiy, agitated, and upset. The
ti·ial comt excluded the testin1ony on grounds of hearsay and noted that Je1maiue was no longer
available for cross-examination to test the validity of the witnesses' accounts. Similar to his
claim concerning Dye's excluded statement, Coleman contends that Je1maine's statements were
not hearsay because they were not offered for their tmthfulness. Instead, according to Coleman,
the statements were offered to show that he was in fear for his life or the lives of others on his
prope1ty and thus the statements supp01ted his claim of self-defense. fu the alternative Coleman
argues that even if hearsay the statements were nonetheless admissible under Indiana Evidence
Rule 803(3) to show Je1maine's then existing state of mind. We have a much different view.
Coleman's fear for his life or the lives of others on the basis of Je1maine's statements has
no relevance to his self-defense claim with respect to Dye. Stated differently, even if it is t111e
that Je1maine's statements placed Coleman in fear of death and gi·eat bodily ha1m, at most that
fact may have suppo1ted Coleman's justification for fatally shooting Je1maine. Coleman does
not explain, nor can we discern, how his fear of Je1maine transfe1Ted to a fear of Dye. Coleman
contends for example that Yan1lffi Munay planned to testify that he drove Je1maine to the studio
on the day of the shooting and that Je1maine was upset and repeatedly yelled for Sha1pe to come
out of the studio. Br. of Appellant at 31. According to Coleman, Willie Williams intended to
testify that Jennaine called him on the day of the shooting and asked Willian1s to come to the
studio, and that when he aITived, Williams asked Je1maine what was going on and Jennaiue
replied that Sha1pe was inside the studio. Br. of Appellant at 32. Finally, according to Coleman,
Otis Jackson intended to testify that he spoke to Jern1aine in the backyard on the day of the
shooting and told Je1maine "it wasn't w01th it," that children were in the area, and that an
agitated Je1maine responded "f'l<*k that. [Sha1pe] didn't think about that s**t when he did this
s**t" to Dye. Br. of Appellant at 32 (quoting Tr. 1 at 220-21).

Appendix E

10

Assuming for the sake of argument the foregoing statements placed Coleman in fear of
Jermaine, there is simply nothing contained in the statements suggesting they placed Coleman in
fear ofDye. 6 The trial comt did not en by excluding the testimony.
C.

Evidence ofAcquittal

Coleman contends the trial court e1rnd by not pennitting him to introduce evidence that
he was acquitted in the shooting death of Jermaine. Coleman insists, "[t]he portion of the
smveillance video played for the jury showed Coleman tum and shoot several times at Jermaine,
for no apparent reason, after shooting Dye. The trial court refused to allow Coleman to tell the
jmy about his p1ior acquittal." Reply Br. of Appellant at 7 (internal citation omitted).
To suppmt his claim of e1rnr Coleman cites Hare v. State, 467 N.E.2d 7 (Ind. 1984). In
that case the defendant Hare was accused of robbing a Shelbyville pha1macy. Over the
defendant's objection the tr·ial comt admitted the testimony of a pharmacist who said the
defendant had robbed his TeITe Haute store within a week of the Shelbyville robbe1y. The two
robberies were similar in several respects, but the defendant had been acquitted of the Tene
Haute robbe1y. Although acknowledging the rnle that evidence of c1iminal conduct other than
that charged generally is inadmissible, we declared "[e]vidence of a crime other than that
charged is ... admissible to show intent, motive, pmpose, identity, or common scheme or plan"
and that the defendant's acquittal of the charge was also admissible as it affected the weight of
the evidence and not its admissibility. Id. at 18.
Hare provides Coleman no refuge. The essential facts in this case are these. The State
intended to show the video of the entire shooting incident that included the shooting of both Dye
and Je1maine. Coleman had no objection but argued that he should be allowed to present
evidence that he was previously charged and acquitted in the shooting death of Jennaine. The
trial comt rejected his argument. However, for reasons not entirely clear from the record before

6

Though it is not the case here, we note that in some circumstances third paity threats directed at a
defendai1t might well be admissible in order to suppo1t a claim of self-defense. See Andre M. Sole,
Annotation, Admissibility of Threats to Defendant Made by Third Paities to Supp01t Claim of Self­
Defense in Criminal Prosecution for Assault or Homicide, 55 A.LR.5th 449 (1998).

Appendix E

11

us, the shooting of Jermaine was not visible when the video was played to the jmy. 7 In fact the
trial comt asked counsel for Coleman, "Do you want to put on evidence that your client shot Mr.
Dye and then turned towards Mr. Jeimaine Jackson and staited shooting him? Is that what you
want to do?" Tr. 2 at 450. To which counsel responded, "I don't want to put on evidence that
my client shot Jem1aine. I want to put on evidence as to why my client turned towards him, and
also because this is very relevant to our the01y of the case that Tyms Coleman was facing two
aimed men, both of whom were dangerous." Tr. 2 at 450.
Here, despite Coleman's claim to the contraiy the video did not reveal that Coleman shot
Jeimaine. And counsel declined the trial comt's invitation to introduce such evidence. In the
absence of any evidence revealing a crime against Jeimaine, Coleman was not entitled to
introduce evidence of his acquittal of a crime. The trial comt thus committed no enor on this
issue.

IV.
Review of Sentence

For his final claim Coleman seeks revision of his sentence. Alticle 7, section 4 of the
Indiana Constitution provides "[t]he Supreme Comt shall have, in all appeals of criminal cases,
the power to . . . review and revise the sentence imposed." Our rnles authoiize revision of a
sentence "if, after due consideration of the trial comt's decision, the Comt finds that the sentence
is inappropriate in light of the nature of the offense and the character of the offender." App. Rule
7(B).
Although citing Rule 7(B), Coleman tells us nothing about the nature of the offense other
than to press his argument that he acted in self-defense. As for his character Coleman points to
the numerous letters sent to the trial court attesting to his good character and his willingness to
7

Indeed on at least two occasions during the course of trial, responding to Coleman's persistent argument
that the video showed Coleman shooting Jermaine, the trial com1 observed: 'The pa11 that was shown to
the jmy did not show him shooting Je1maine in spite of what you say. It did not show that." Tr. 2 at 382.
"Well, now, you keep saying that, but that does not appear in the video. The evidence speaks for itself."
Tr. 2 at 449. There was speculation that the failure of the video to show Je1maine's shooting was the
result of the compression ratio of the com1room video screen. Tr. 2 at 262-63.

Appendix E

12

help others. "[A] defendant must persuade the appellate comt that his or her sentence has met
[the] inappropriateness standard of review." Childress v. State, 848 N.E.2d 1073, 1080 (Ind.
2006). Coleman has failed in this effo1t.
Concerning the nature of the offense, the adviso1y sentence is the sta1ting point the
Legislature has selected as an appropriate sentence for the crime committed. The advisory
sentence for a Class A felony is thi1ty years. See I.C. § 35-50-2-4. Here the trial court imposed
a sentence of fo1ty-five years. Although the nature of the offense may justify a revised sentence
under some circumstances, we are not persuaded those circumstances are present in this case.
The record shows that Coleman fired at Dye twice at close range with a .45 caliber handgun.
The first shot strnck Dye in the head. After Dye was immobilized and fell to the ground,
Coleman fired again striking Dye in the chest. Fmther, although Coleman had the opp01tunity to
do so, he never used his cell phone to contact the police and info1m them that two armed and
dangerous men were on his prope1ty. In addition, there were a number of other adults in the
immediate area as well as small children, including Coleman's own son, whose safety was put in
jeopardy by Coleman firing his weapon. Regarding the character of the offender, the record
shows that Coleman has amassed a criminal record that includes six misdemeanor offenses and
one felony offense. Coleman was also on probation at the time of the instant offense. We have
not been persuaded that Coleman's character or the nature of his offense requires a revision of
Coleman's sentence.
Conclusion

We affirm the judgment of the tiial court.
Shepard, C.J., and Dickson, Sullivan and David, JJ., concur.

Appendix E

13

FOR PUBLICATION
ATTORNEY FOR APPELLANT:

ATTORNEYS FOR APPELLEE:

CARA SCHAEFER WIENEKE
Wieneke Law Office, LLC
Indianapolis, Indiana

GREGORY F. ZOELLER
Attorney General of Indiana
IAN MCLEAN
Deputy Attorney General
Indianapolis, Indiana

IN THE
COURT OF APPEALS OF INDIANA
TYRUS D. COLEMAN,
Appellant-Defendant,
vs.
STATE OF INDIANA,
Appellee-Plaintiff.

)
)
)
)
)
)
)
)
)

No. 20A03-0904-CR-185

APPEAL FROM THE ELKHART CIRCUIT COURT
The Honorable Teny C. Shewmaker, Judge
Cause No. 20C01-0703-MR-1

March 31, 2010
OPINION - FOR PUBLICATION
KIRSCH, Judge

Appendix F

Tyms D. Coleman ("Coleman") was convicted of attempted murder, 1 a Class A
felony, after a jmy trial. He appeals, raising several issues, of which we find the following
dispositive:

whether the doctrines of double jeopardy and collateral estoppel barred

Coleman's retrial for attempted murder.
We reverse.

FACTS AND PROCEDURAL IDSTORY
Sometime in November 2006, Anthony Dye ("Dye") was robbed by Omar Sharpe
("Sharpe") and another man. During the robbe1y, the men took money and Dye's gold chain.
Because Dye knew that the two men were associated with a recording studio owned by
Coleman, he went to Coleman's studio, aimed with a handgun for protection, to talk to
Coleman about the robbe1y.

Although Coleman did not know about the robbery, he

apologized to Dye and offered to find out what he could. Coleman was able to recover Dye's
gold chain from Sharpe and called to arrange a time to return it in December. At some point
after retrieving the gold chain from Coleman, Dye found out that Coleman had bonded
Sharpe out of jail. Dye called Coleman to express his displeasure with this and to tell him
that if Dye found out that Coleman had anything to do with the robbery, "there would be
problems for [Coleman]," which Coleman understood as a threat to his life. 2008 Tr. 2 at 274.

1

See fud. Code§§ 35-42-1-1, 35-41-5-1.

2

The record on appeal contains both a two-volume t:ransc1ipt of Coleman's first jury trial, held in
Febrnruy 2008, and a three-volume transc1ipt of the second jmy trial, held in Mru·ch 2009. We will refer to the
transc1ipt from the first tlial as 2008 Tr. and the ti·anscript from the second tlial as 2009 Tr.

2
Appendix F

In Febmary 2007, Dye's son, Jennaine Jackson ("Jermaine"), heard about the robbery
and called Dye to inquire as to why Dye had not told him about it. Dye told Jermaine that he
had not mentioned it because he did not want Jennaine to get in any trouble. Id. at 128. On
March 18, 2007, Dye received a call from Jermaine, who told Dye that Sharpe was located at
an apartment complex in Elkhart. Dye told Jennaine, "Don't do nothing. I'm on my way."

Id. at 130. When Dye was on his way to the apartment complex, Jermaine called back to let
Dye know that Sharpe had already left. After going to the shooting range with a friend,
Jermaine had the friend drive him to Coleman's recording studio because he said he had "to
do something for his dad." Id. at 162. When they anived at the studio, Jermaine saw another
friend and asked this friend to go get Sharpe. The friend went inside the sh1dio and told
Sharpe that Jermaine wanted to see him. During this time, Jermaine had walked around to
the entrance of the studio.
Coleman stepped outside and asked Jennaine what was going on, to which Jermaine
replied, "You already know." Id. at 280. While Coleman was talking to Jermaine, Sharpe
walked outside to see what Jermaine wanted. Within seconds, Jermaine pulled a handgun out
of his waistband and pointed it at Sharpe, who ran back into the studio. Jermaine chased
Sha1pe and a struggle occurred between Jermaine, who was trying to push the studio door
open, Sharpe, who was closing the door to prevent Jermaine from entering, and Coleman,
who was trying to keep Jem1aine from raising the gun at anyone. Eventually, Sharp e and
Coleman were able to get the studio closed, leaving Jermaine and Coleman outside. Jermaine
returned the handgun to the waistband of his pants.
3
Appendix F

Coleman continued to attempt to calm Je1maine down and to ask him to leave.
Jennaine then began calling people on his cell phone and asking them to come to the studio,
despite Coleman's requests not to do so. Jennaine called Dye, who was riding around with
his girlfriend, and told Dye to come over to the studio i1runediately. Although Jermaine did
not tell him so, Dye had a "gut feeling" that Sharpe was at the studio. Id. at 132. Dye
retrieved a handgun from the engine of his car, where he stored it, and had his girlfriend
drive him over to Coleman's recording studio. At some point during this time, Coleman
retrieved a handgun from inside of the studio, which he held in his hand for the remainder of
the confrontation. Coleman also called Jermaine's cousin and friend, Otis Jackson ("Otis"),
and asked him to come over to t1y to calm Je1maine down.
During this time, Coleman's son had been playing basketball in the front of the house.
Coleman told his son to go inside of the studio. The son attempted to leave the studio, and
Coleman, motioning with his handgun, ordered the boy back in the studio. When Otis
anived, he tried to get Jermaine to calm down by telling him it "wasn't wo11h it," that there
were kids around, and that he should just leave. Id. at 220-21. Coleman also stated that his
son was inside of the studio and that Jermaine should respect that. Jermaine replied, "F**k
that. [Sha1pe] didn't think about that sh*t when he did this sh*t to my Daddy." Id. at 221.
Je1maine also stated that he was going to "beat [Sha1pe's] ass" and "pop him." Id. at 294.
Shortly thereafter, Dye airived and entered the backyard area near the studio. Dye
held a handgun in his right hand, down at his side, and pointed at the ground. Otis testified
that Dye appeared "pretty aggressive" when he walked into the backyard and looked "like he

4

Appendix F

was there to take care of some business." Id. at 225-26. When Dye walked towardJern1aine,
he saw that Coleman had a gun in his hand and was standing near the studio door. Dye then
stated, "F**k all that sh*t. Where the n**ger at," referring to Sharpe. Id. at 135, 223, 295.
As Dye came within feet of him, Coleman raised his gun and shot Dye twice. Je1maine then
pulled out his handgun and began shooting at Coleman; Coleman turned and shot at
Je1maine. The entire exchange of gunfire lasted three seconds. Jermaine died as a result of
his injuries. After the shooting, Coleman went back in the studio and had a friend take his
son to his grandmother's house. Coleman drove to Milwaukee, disposing of his gun on the
way, and stayed for several days before returning and sunendering to the police.
The State charged Coleman with murder for killingJermaine and attempted murder, a
Class A felony, for shooting Dye, who survived his injuries. On February 11-13, 2008, a jury
trial was held, at which Coleman argued that he acted in self-defense when he shot Jermaine
and Dye. At the conclusion of the trial, the jmy found Coleman not guilty as to murder but
was unable to reach a verdict as to attempted murder. The trial cowt set Coleman's
attempted murder charge for another trial. On November 10, 2008, Coleman filed a motion
to dismiss the attempted murder charge by reason of collateral estoppel. After a hearing, the
trial comt denied the motion. Coleman was retried on the attempted murder charge on
March16-18, 2009, and the jury found him guilty. He was sentenced to an aggregate
sentence of f01ty-five years. Coleman now appeals.

5
Appendix F

DISCUSSION AND DECISION
"Collateral estoppel, or in modern usage, issue preclusion, 'means simply that when
an ultimate issue of fact has once been detennined by a valid and final judgment, that issue
cannot again be litigated between the same parties in any future lawsuit."' Davis v. State,
691 N.E.2d 1285, 1288 (Ind. Ct. App. 1998) (quoting Ashe v. Swenson, 397 U.S. 436,443,
90 S. Ct. 1189,1194,25 L. Ed. 2d 469 (1970)). In criminal trials,collateral estoppel is an
integral part of the protection against doublejeopardy guaranteed by the Fifth and Fourteenth
Amendments. Id. (citing Townsend v. State, 632 N.E.2d 727, 731 (Ind. 1994)). It is not the
same as double jeopardy, but rather it is embodied within the protection against double
jeopardy. Segovia v. State, 666 N.E.2d 105,107 (Ind. Ct. App. 1996). '"The traditional bar
of jeopardy prohibits the prosecution of the crime itself, whereas collateral estoppel, in a
more modest fashion, simply forbids the government from relitigating ce1tain facts in order to
establish the fact of the crime."' Davis, 691 N.E.2d at 1288 ( quoting Segovia, 666 N.E.2d at
107) (internal quotation omitted). Thus, collateral estoppel requires that when the State has
received an adverse decision of a critical issue of fact in a trial,that adverse decision prevents
later re-litigation of the same issue in a later prosecution. Id.
Coleman argues that the doctrine of issue preclusion baiTed the State from re-litigating
the issue of whether his use of force against Dye was criminal. He contends that the jmy' s
acquittal for the murder of Jermaine in his first trial "could not have been for any other
reason than a finding that Coleman acted in self-defense and/or defense of another" because,
during the trial, he did not deny shooting Jennaine but only argued that he was justified in

6
Appendix F

doing so. Appellant's Br. at 12. Therefore, Coleman asserts that the jury's determination
meant that the jmy also necessarily decided that his use of force against Dye, which
immediately preceded his use of force against Jermaine, was not criminal.
"In order to apply the doctrine of collateral estoppel, the court must engage in a two­
step analysis: '(1) detennine what the first judgment decided; and (2) examine how that
determination bears on the second case."' Segovia, 666 N.E.2d at 107 (quoting Webb v.

State, 453 N.E.2d 180, 183 (Ind. 1983) (citations omitted)). In order to determine what the
first jud gment decided, the comt must examine the record of the prior proceedings including
the pleadings, evidence, charge, and any other relevant matter. Id. The comt must then
decide whether a reasonable jury could have based its verdict upon any factor other than the
factor of which the defendant seeks to foreclose consideration. Id. If the jmy could have
based its decision on another factor, then collateral estoppel does not bar re-litigation. Id.
In the present case, Coleman was initially charged with murder for killing Je1maine
and attempted murder for shooting Dye. In the first trial, the jury found Coleman not guilty
as to the murder of Jennaine, determining that Coleman acted in self-defense when he shot
Je1maine. The jmy was unable to reach a verdict as to the attempted murder charge
concerning the shooting of Dye. "A person is justified in using reasonable force against
another person to protect the person or a third person from what the person reasonably
believes to be the imminent use of unlawful force." Ind. Code § 35-41-3-2. In order to
prevail on such a claim, the defendant must show that he: (1) was in a place where he had a
right to be; (2) did not provoke, instigate, or pa1ticipate willingly in the violence; and (3) had
7
Appendix F

a reasonable fear of death or great bodily harm. Kimbrough v. State, 911 N.E.2d 621, 635
(Ind. Ct. App. 2009). Here, the jmy was instructed as follows as to the justification of selfdefense:
It is an issue whether the Defendant acted in self-defense.
A person may use reasonable force against another person to protect himselfor
a third person from what he reasonably believes to be the imminent use of
unlawful force.
A person is justified in using deadly force, and does not have a duty to retreat,
only ifhe reasonably believes that deadly force is necessa1y to prevent serious
bodily injmy to himself or a third person or the commission of a forcible
felony.
However, a person may not use force if:
He is committing a crime that is directly and immediately connected to the
confrontation;
He provokes a fight with another person with intent to cause bodily injmy to
that person; or
He has willingly entered into a fight with another person or staited the fight,
unless he withdraws from the fight and communicates to the other person his
intent to withdraw and the other person neve1theless continues or threatens to
continue the fight.
The State has the burden of proving beyond a reasonable doubt that the
defendant did not act in self-defense.

Appellant's App. at 112.
In order to acquit Coleman of murder based upon self-defense, the jury must have
determined that Coleman reasonably believed that deadly force was necessary to prevent
serious bodily injmy to himself or third persons or the commission of a forcible felony.
Because ofthis detennination, the jmy necessai-ily had to find that, when he shot Je1maine,

8
Appendix F

Coleman was not committing a crime that was directly and immediately connected to the
confrontation, that he did not provoke a fight with another person with the intent to cause
bodily injury to that person, and that he had not willingly entered into a fight with another
person. As the shootings of Dye and Jermaine happened within three seconds of each other,
the jury's dete1mination must have meant that Coleman had not willingly entered into a fight
with Dye, that he had not provoked a fight with Dye with the intent to cause bodily injury to
Dye, and that he was not cmrunitting a crime that was directly and immediately connected to
the confrontation. Stated another way, the jury must have believed that Coleman was in a
place that he had a right to be; that he did not provoke, instigate, or paiticipate willingly in
the violence; and that he had a reasonable fear of death or great bodily haim. See

Kimbrough, 911 N.E.2d at 635. Therefore, in acquitting Coleman of murdering Jennaine
based upon self-defense in the first trial, the jmy must have necessarily decided that
Coleman's use of force against Dye was also not a crime. If Coleman's use of force against
Dye was a crime, then the jmy could not have reasonably dete1mined, pursuant to the final
instructions given, that Coleman's use of force against Je1maine was justified. Thus, the
doctrine of issue preclusion ban-ed the State from re-litigating the issue of whether
Coleman's actions against Dye constituted attempted murder. The u-ial comt should not have
denied Coleman's motion to dismiss.
Reversed.
MAY, J., concurs.
DARDEN, J., dissents with separate opinion.

9
Appendix F

IN THE
COURT OF APPEALS OF INDIANA
TYRUS D. COLEMAN,

)
)
)
)
)
)
)
)
)

Appellant-Defendant,
vs.
STATE OF INDIANA,
Appellee-Plaintiff.

No. 20A03-0904-CR-185

DARDEN, Judge, dissenting

I would respectfully dissent from the majority.
The facts, as recounted by the majority, arguably could supp01t their conclusion that
the jury could not have reasonably disbelieved that Coleman's use of deadly force was
necessaiy. On the other hand, however, I believe that the totality of the evidence and
circumstances sunounding this case support the reasonable conclusion that the jmy just could
not reach a unanimous verdict as to whether Coleman was justified in using deadly force

10
Appendix F

against Dye at the time of the incident. As a result, I believe the majority's conclusion
impe1missibly impinges upon the jury's role as the trier of fact.
This case represents a relatively rare moment where the entire incident was preserved
for the trier of fact, i.e., the jmy, to decide what happened. Specifically, the activity in the
yard next to the studio before the shooting and during the shooting of Dye by Coleman was
captured on video by a surveillance camera. This video was shown to the jmy. The area
shown may be described as an upside-down "L" -- with the horizontal leg parallel to the back
of a house; the ve1tical leg on the right, parnllel to the studio.
For at least five minutes before Dye's aITival, Coleman is pacing alongside the studio
with a handgun in one hand and a cell phone in his other, apparently talking on the cell
phone. 3 Jennaine is in the area primarily beyond the view of the camera, but at the end of the
ve1tical leg past the studio. From the opposite end of this "L" (at the left end of the
horizontal leg), Dye is seen coming around the comer of the house; he has a gun in his hand
but it is pointed downward toward the ground. Dye walks on the diagonal directly toward his
son, with his eyes fixed upon his son. Dye is not walking toward the door of the studio; nor
does he appear to be looking at Coleman. At this point in time, Coleman is near the right
angle comer of the "L. "4 As Dye moves diagonally past him, Coleman appears to step
toward Dye, raise his gun, and shoot Dye, who immediately begins to fall to the ground.

3

Coleman testified that he had placed calls to several people during this time.

4

It seems undisputed that Je1maine's gun is holstered at this time.

11
Appendix F

Coleman shoots Dye a second time.5 It is at this point that Coleman "turned to Jem1aine."
(Tr. 330). Coleman sees that Jennaine's gun, which had been under his long athletic-type
shi1t and in its holster, is "pointed at [Coleman]"; and Coleman shoots Jennaine. (Tr. 330).
Consistent with the video, Dye testified that as he walked across the yard, his "focus"
was on "[his] son," and that he was going "towards [his] son." (Tr. 135). He further testified
that he "asked" his son, "where that n**ger at or where Omar at." Id. Coleman also testified
that when Dye walked into the yard, he was "looking at" his son, and "was not looking at
[Coleman]" when he said, '"F**k that. Where the n**ger at?"' (Tr. 327).
A defendant who raises the claim of self-defense must show three facts: ( 1) he was in
a place where he had a right to be; (2) he acted without fault; and (3) he had a reasonable fear
of death or great bodily harm." Wallace v. State, 725 N.E.2d 837, 840 (Ind. 2000). It is the
State's burden to negate "at least one of the elements of the defendant's self-defense claim."

Id.
I believe that the evidence must be considered sequentially and separately as to each
count -- first, the evidence as to shooting of Dye, and then the separate evidence as to the
shooting of Jermaine. After reviewing the video that the jury saw, I am of the opinion that
the testimony at trial and the video evidence could support the reasonable inference that
Coleman was not in fear for his life as Dye was walking past him, while also supporting the
reasonable inference that Coleman was in fear for his life when facing Jermaine's drawn

329).

5 Coleman admitted that he fired the second shot at Dye "as he was going to the ground." (Tr. 308,

12
Appendix F

weapon.

Such analysis supports my conclusion that we simply cannot know what

detennination the jmy reached, or failed to reach.
Because a "jury's deliberations are secret and not subject to outside examination,"

Yeager v. United States,_ U.S._, 129 S. Ct. 2360, 2368 (2009), we cannot know why the
first jmy was unable to reach a unanimous verdict on the attempted murder of Dye. It may
be that one of the twelve jurors believed that the State had failed to negate Coleman's claim
of self-defense as to Dye; but it may also be that there were eleven jurors who believed that
the State had negated Coleman's claim of self-defense; and, as a result, the jmy could not
anive at a unanimous verdict for conviction, as required by law. In other words, the jmy
hung as to the charge of attempted murder, requiring a mistrial and resulting retrial on that
count. Accordingly, I cannot agree with the majority's conclusion that issue preclusion
applies here, and I would conclude that the trial com1 did not abuse its discretion when it
allowed Coleman to be re-tried for the attempted murder of Dye.

13
Appendix F

KINDLEY LAW OFFICE

502 W Washington Street, South Bend, Indiana 46601
(574) 968-8602; john@kindleylaw.com

January 20, 2009

Hon. Terry C. Shewmaker
Elkhart County Circuit Court
101 N. Main Street
Goshen, Indiana 46526
RE:

State v. Tyrus Coleman; Cause No. 20C0I-0703-MR-l
Additional Authorities

Dear Judge Shewmaker:
I am submitting this letter, which is being mailed this same date to the state, to provide
the court with additional authorities on the question which appeared to be your principal concern
at last Thursday's hearing on defendant's Motion to Dismiss By Reason of Collateral Estoppel:
i.e., Couldn't the jury, in acquitting the defendant Tyrus Coleman on the murder charge, simply
have believed that the state had failed to prove its case on the murder charge, independently of
the self-defense issue?
Because the surveillance tapes which were shown to the jury at trial unequivocally
demonstrated that Tyrus caused the death of Jermaine Jackson, and Tyrus admitted at trial that he
caused the death of Jermaine, the only conceivable element of the murder charge that the jury
could have based its acquittal upon apart from self-defense would have been the "knowingly"
element. Additional authorities bearing on this issue which have come to my attention since the
hearing are McCann v. State, 854 N.E.2d 905, 911 (Ind.Ct.App. 2006) (firing two shots during
encounter militates against finding that shooting was accidental rather than intentional); Mann v.
State, 895 N.E.2d 119, 121 (Ind.Ct.App. 2008) ("We think it goes without saying that if a person
is kicking a victim while the victim is lying on the floor, the person is aware of a high probability
that he is inflicting injury on the victim."); Book v. State, 880 N.E.2d 1240, 1252 (Ind.Ct.App.
2008) ("It is generally presumed that a person intends the natural, necessary, and probable
consequences of his acts."). In this case, Tyrus admitted to firing multiple shots at Jermaine, and
did not dispute the state's evidence that he fired at least six shots at Jermaine. Tyrus' own
testimony at trial relating his recollection of this incident demonstrated that he was aware of
what was happening and of what he was doing. No evidence was presented at trial to rebut the
general presumption that Tyrus knew what he was doing.
The following additional authorities (as well as De La Rosa v. Lynaugh, 817 F.2d 259,
263-66 (5th Cir. 1987), already cited at page 6 of the defendant's Reply to State's Response)
demonstrate the irrational and irreconcilable inconsistency that would inhere in a subsequent
jury's finding that Tyrus shot Anthony Dye with the "specific intent" and "conscious objective"

Appendix G

/81

to cause his death (and is therefore guilty of attempted murder) if we were simultaneously to
suppose that the jury at the first trial found that Tyrus did not even act "knowingly" when he shot
Jermaine six times immediately after he shot Anthony: Green v. Estelle, 601 F.2d 877, 879 (5th
Cir. 1979) (rejecting as "patently unreasonable" state's contention that defendant might have
acted with malice as to one child but not the other, when the record showed that the two children
were killed almost simultaneously; finding no evidence indicating a change in defendant's state
of mind; and holding that state was therefore collaterally estopped from relitigating issue of
defendant's state of mind in second trial); Garcia v. State, 718 S. W.2d 785, 789 (Tex.Ct.App.
1986) (holding that, because the factual context of the two offenses were so intertwined, the jury
in the first trial necessarily determined the defendant's mental state at the time he shot at one
police officer when it made its determination of his mental state when he shot another police
officer, where the two shots were fired within seconds of each other, and therefore collateral
estoppel barred relitigation of defendant's mental state).
In other words, ifthe jury's acquittal of Tyrus were based on the belief that the state had
not proved the "knowingly" element of murder, then such a determination would itself also
collaterally estop the state from relitigating Tyrus' mental state and attempting to prove that a
split second before Tyrus unknowingly shot Jermaine he shot Anthony with the intentional and
conscious objective to end his life.
(In the defendant's original Motion to Dismiss at page 16, the defendant acknowledged
that defendant's trial counsel seemed in closing arguments to raise in passing a question about
the "knowingly" element of the murder charge. But this question was raised, and conflated by
trial counsel in literally the same breath, with the question of whether Tyrus' "conscious
objective" was to kill Anthony and with the issue of self-defense: "So did he really know he was
killing Jermaine; did he really have the specific intent to kill Anthony; or was it something else?
Was it acting without thinking? .. . [I]n an instant he reacted. In an instant he stopped Anthony."
Trial Transcript at page 373-74.In any event, the court's collateral estoppel inquiry is not
controlled by a quick remark made by counsel in the course of delivering closing arguments, but
rather by what a rational jury could have based its verdict upon in light of the actual jury
instructions given to it by the court and the actual evidence presented at trial.)

□
□

There was discussion at the hearing on Tyrus' Motion about whether the fact that the jury
might have simply chosen to disregard the law and the facts and to exercise mercy renders it
impossible for the court to determine what issues the jury "necessarily decided" by its acquittal
of Tyrus on the murder charge. In response I represented to the court that several cases have
addressed this point, and for the convenience of the court now cite here two such authorities:
Green v. Estelle, 601 F.2d at 878-79 {"The state proposes a different explanation of the jury
verdict. It claims that the jury convicted Green of murder Without malice, instead of murder
With malice, simply because it wished to be merciful. Therefore, the state argues, we should not
treat the verdict as conclusively deciding the issue of malice.But this claim could be made about
any ultimate issue of fact decided by a jury. If we adopted the state's position, we could never
apply the principle of collateral estoppel. Clearly, this is not what the Supreme Court intended
when it held that the principle collateral estoppel is a part of the Double Jeopardy Clause.We
must take the jury at its word, and in this case, its word shows that in the first murder trial it
decided the issue of malice in Green's favor.") (citations and footnotes omitted); Segovia v. State,
2

Appendix G

!Bl

666 N.E.2d 105, 108 (Ind.Ct.App. 1996) ("[T]he State argues that other extraneous factors, such
as Segovia's age, could have influenced the jury's verdict. In addition, because the jury is the
judge of both the law and the facts, it could have decided that it did not agree with the concept of
felony murder and chose to ignore the· law. It is true that in Indiana the jury determines both the
law and the facts in criminal trials. IND. CONST., Art. I, § 19. However, if that could be a basis
for avoiding the application of collateral estoppel, the doctrine would never be applied because
every criminal acquittal includes the risk of a jury deciding simply not to follow the law.").
Because I almost exclusively discussed Segovia at the hearing on defendant's Motion to
Dismiss (and answered affirmatively to the court's asking if I wanted the court to review
Segovia), and because Davis v. State, 691 N.E.2d 1285 (Ind.Ct.App. 1998) was the one case
cited by the state at the hearing that it specifically asked the court to look at as being favorable to
the state-'s position, the court may have gotten the erroneous impression that these two cases are
the "big" cases for the defendant and for the state respectively. Of course, all of the cases cited in
defendant's Motion to Dismiss and defendant's Reply to State's Response are important to the
defendant's position. In particular, I would like to point out to the court that Davis was first
discussed at length by the defendant in his original Motion to Dismiss at pages 17-19, and that it
constitutes important authority· for Tyrus Coleman's position in that it provides an example of an
Indiana court recognizing in a murder case that self-defense must have been the basis of the
jury's acquittal (presumably because no other basis would have made rational sense).
Sincerely,

John A. Kindley
cc:

Don Pitzer, II; Deputy Prosecuting Attorney

3

Appendix G

/83

STATE'S WITNESS - DR. DAVID VANRY.AN - (DIRECT)

1
2
3

the jury.)
BY MR. WILLIAMS:
Q

4
5

Doctor VanRyan, what do we see in State's Exhibit
27?

A

This is a picture of Mr. Dye again in trauma room

6

Tl in the emergency department at Elkhart General

7

Hospital.

8

Q

And with respect to State's Exhibit 28?

9

(State's Exhibit 28 was published to
the jury.)

10
11

A

This is a picture of the left side of his head.

12

And, again, this is right where the ear hooks onto

13

the side of the scalp and represents what appears

14

to have been an entry wound that came in at this

15

point.

16

Q

projectile as we would see in State's Exhibit 28?

17
18

What was the direction of travel for that

A

Well, it -- again, given the relatively concentric

19

and clean nature of this versus the much more

20

ragged nature of the one in the back of the head,

21

it would be my opinion that the projectile came

22

from the front of the patient, through this area,

23

tracked immediately along the skull underneath the

24

skin here, and exited at the back of the head.

25

Q

Appendix G

Dr. VanRyan, what do we see with respect to State's
89

•

snn • s wznmss - DR. DA.vm

chest and abdomen injuries, do you have an opinion

2

as to whether they were life threatening?

3

A

They were.

4

Q

And what's the basis for that opinion?

5

A

The presence of lung damage, bleeding in the chest,

6

as well as intraabdominal bleeding, both are all

7

present life threats.
Q

10

A

13

Q

And after he was transferred to South Bend
Memorial, did that end your involvement in his
care?

14
15

I think it was in the order of an hour and a half.
In that vicinity.

11

12

How long did you treat Anthony Dye in the ER on
March 18, 2007?

9

A

It did.

16

MR. WILLIAMS:

17

THE COURT:

19
20

No further questions.

Mr. Kindley.
aoss-�IOH

18

•

(caoss)

1

8

•

VADm -

BY HR. KINDLEY:
Q

Or. VanRyn, just a couple of -- I just want to
You testified that the wound on

21

clarify one thing.

22

the chest was more regular than the wound on the

23

back.

24

A

25
Appendix G

Is that correct?

Well, I don't specifically remember; but from the
appearance of the photograph, that's what it
189

S'fAft'S

DR. VAl1RD - (Jm>IltSC'!')

appeared.

l
2

nmsss -

Q

Did it appear more uniform on the chest than the
wound on the back?

3
4

A

Again, judging from the photographs, yes.

5

Q

Okay.

So again, judging by the photographs, that

6

would suggest to you that the entrance wound was on

7

the chest and the exit wound is on the back.

8

that correct?

9

A

Based upon that, yes.

10

Q

All right.

12
13
14

Thank you, Doctor.

THE COURT:

11

Is

Any other questions, Mr. killiams?

l'SDrUCT

SPNDP.!'IOH

BY MR. WILLIAMS:
0

Doctor VanRyn, you can't hold -- you don't hold

15

that opinion to a reasonable degree of certainty in

16

your field as far as it was a exit wound or an

17

entrance wound on his chest.

Is that correct?

18

A

I don't.

19

Q

And you don't have any specific expertise in

20

evaluating exit and entrance wounds as far as

21

irregularities or regularities.

22

A

24

That's correct.
MR. WILLIAMS:

23

Is that correct?

No further questions, your

Honor.

25
Appendix G

THE COURT:

Mr. Kindley, any other questions?
190

It's consciousness of guilt.

1

self-defense.

2

the after effects matter.

3

That's why

We've talked a bit about objective belief, and

4

subjectively do you believe it?

5

an objective reasonable person believe?

6

act?

7

out and you look in, call 911, leave.

8

your son in the studio where allegedly Jermaine is now

9

wanting to kill Omar and is waiting for his dad to reek

10

No.

Objectively.

Would

How would they

Based on everything you know because you've stepped
Certainly not put

Armageddon.

11

Let me take Kam and put him in -- with waving

12

my gun, you know, into the studio.

13

his mental state was.

14

or that it was going to be going down.

15

was going on.

16

That shows you what

He wasn't afraid of Anthony Dye,
That's not what

He could have just said go next door.

That's

Go next door to

17

what a reasonable objective person does.

18

the neighbors.

19

certainly not shoot someone in the head as they're

20

passing you, and then shoot them again as they fall.

21

Okay.

Not put him in with Omar, and

Finally, ladies and gentlemen, eminent use of

22

unlawful force.

23

used for a purpose.

24

The defendant knows what's at hand.

25

coming.

Appendix G

When it comes to eminent, the word is
Okay.

Eminent means now, at hand.
He knows who's

He knows what the situation is.
548

He knows in the

1

case?

2

MR. HOSINKSI:

Well, your Honor, I know the

3

Court is more familiar with this case possibly than it

4

would normally appreciate
THE COURT:

5

I'm sorry to interrupt you, but

6

yesterday we received this in the mail.

7

look at it either one of you?

8

MR. HOSINSKI:

9

THE COURT:

10

It's a victim impact statement.

11

so you'll have to look at it together.

12

All right.

Do you want to

What is it?

It's a -- it relates to Mr. Dye.
It's the only one I have

The record should reflect the Court

13

has displayed the victim impact statement to counsel for

14

the parties.

15

Go ahead, Mr. Hosinski.

MR. HOSINKSI:

Thank, Judge.

Again, we're in

16

a -- one of the more unique situations I've ever seen

17

from a sentencing standpoint in my 20 years of practice.

18

We're sitting here with a gentleman who given the outcome

19

of his first trial, as the Court is aware, could have

20

been home a year ago had he accepted the offer at the

21

time following the hung jury on this case.

22

His conviction obviously -- I mean, his

23

personal conviction not his conviction in this cause.

24

His personal conviction has been one from the beginning

25

of legitimate exercise of self-defense, which was his

Appendix G

10

